        April 8, 2003




Defense Infrastructure


Document Automation and
Production Service Public/Private
Competition
(D-2003-076)




This special version of the report has been revised to omit data considered Government
commercial privileged or personal privacy.




                    Department of Defense
                Office of the Inspector General
Quality                           Integrity                   Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
C.F.R.                Code of Federal Regulations
DAPS                  Document Automation and Production Service
DLA                   Defense Logistics Agency
DRMS                  Defense Reutilization and Marketing Service
FAR                   Federal Acquisition Regulation
GPO                   Government Printing Office
IRO                   Independent Review Officer
MEO                   Most Efficient Organization
NIB/NISH              National Industries for the Blind / NISH (formerly National
                         Industries for the Severely Handicapped)
OMB                   Office of Management and Budget
PWS                   Performance Work Statement
SSAC                  Source Selection Advisory Council
              Office of the Inspector General of the Department of Defense
Report No. D-2003-076                                                           April 8, 2003
      (Project No. D2002CB-0088.000)

                     Document Automation and Production Service
                            Public/Private Competition

                                        Executive Summary

Who Should Read This Report and Why? Anyone in the Federal Government and the
general public concerned with competitive sourcing issues would benefit from the lessons
learned in this application of the Office of Management and Budget (OMB) Circular
No. A-76 (OMB Circular A-76).

Background. This report discusses our assessment of the OMB Circular A-76
public/private competition of the Document Automation and Production Service (DAPS),
a field activity of the Defense Logistics Agency (DLA). The OMB Circular A-76
competition covered approximately $164 million per year of electronic output and
document automation services performed at 260 continental U.S. locations. A total of
1,400 full-time equivalent personnel positions performed the functions included in the
OMB Circular A-76 competition. This audit was initiated in response to a request from
Representative Joel Hefley, Chairman of the House of Representatives Subcommittee for
Military Readiness, Committee on Armed Services, that we review the DAPS
public/private competition solicitation to determine why no private firms submitted offers
and why offset printing work was not included in the solicitation (see Appendix B).
Subsequently, Senator George Allen requested that we examine various concerns a DAPS
employee raised regarding implementation of the Government’s most efficient
organization (MEO).

Results. The solicitation for the DAPS public/private competition discouraged private
firms from submitting offers in competition with the Government MEO. DLA withheld
specific workload and staffing information from prospective contract offerors; offered to
guarantee only 10 percent of yearly estimated work; did not provide specific historical
information related to maintenance costs and did not offer leased equipment to private
offerors; and excluded from the solicitation offset printing work forwarded to the
Government Printing Office (GPO). As a result, private firms considered the competition
high risk and did not submit proposals.

The same private sector consultant personnel developed the performance work statement
(PWS) and prepared the MEO proposal for the DAPS public/private competition, which
was a potential conflict. * . As a result, the potential conflicts and noncompliance
compromised the appearance of integrity and fairness for the OMB Circular A-76
competition.

*
    Government commercial privileged or personal privacy information omitted.
DAPS modified the certified MEO structure before implementation. DAPS did not
prepare revised management plans or cost estimates that supported the modifications.
Guidance regarding MEO implementation was inadequate. As a result, the MEO
management plan was not implemented as proposed; and DLA cannot demonstrate that
actual MEO costs will fall within the in-house cost estimate.

DLA should consider the results of this audit and decide a future course of action, which
includes the following options.

     • Continue implementation of the MEO structure; reannounce the OMB Circular
       A-76 competition within 2 years and include reliable staffing and workload
       information and potential conflict of interest safeguards.

     • Include offset printing functions in the above alternative or separately solicit
       such functions at some future time.

Management Comments and Audit Response. The DLA Chief Information Officer
partially concurred with the recommendations, stating that DLA would decide by
June 30, 2004, after completion of a DLA post-MEO review of the DAPS function, on a
future course of action. DLA stated that it would consider the offset printing alternative
if the Federal Acquisition Regulation is modified to allow work currently procured
through the GPO to be purchased directly from commercial sources. DLA concurred
with recommendations: to develop oversight procedures that assure certified MEO
management plan revisions are justified, costed, and approved and allow a sufficient
audit trail; to develop controls and oversight that assure PWS and MEO development
team constituency complies with DoD guidance; and to issue guidance on the firewall
development, noting its present guidance included such safeguards. DLA comments to
the recommendations were generally responsive. However, we do not agree that the
present DLA guidance adequately describes OMB Circular A-76 firewall development.
Thus, we request additional DLA comments to the final report on the firewall
development recommendation. The office of the Deputy Under Secretary of Defense
(Installations and Environment) concurred with report recommendations noting that DoD
would ensure issues would be resolved either through the planned revised OMB
Circular A-76 or in DoD guidance to implement the revised circular. The office of the
Deputy Under Secretary stated that a recommendation to issue policy and guidance that
clarifies the applicability of subjecting DoD printing provided to the GPO should be
addressed to the Director, Administration and Management. We therefore redirect the
recommendation and request comments from the Directors, Administration and
Management and DLA by June 10, 2003. See the finding sections of the report for a
discussion of the management comments to the recommendations, Appendix E for a
discussion of management comments on the findings, and the Management Comments
section of the report for the complete text of the DoD and DLA comments.




                                             ii
Table of Contents

Executive Summary                                                         i

Background                                                               1


Objectives                                                               3


Other Matters of Interest                                                3


Findings
     A. Adequacy of the Solicitation for Competition                      4
     B. Potential Conflicts of Interest                                  14
     C. Implementation of a Most Efficient Organization                  25

Appendixes
     A. Scope and Methodology                                            31
          Prior Coverage                                                 32
          Management Control Program Review                              32
     B. Congressional Request                                            34
     C. Chronology of Document Automation and Production Service
           OMB A-76 Competition                                          35
     D. Concerns and Audit Results                                       38
     E. Management Comments on the Findings and Audit Response           47
     F. Report Distribution                                              55

Management Comments
     Deputy Under Secretary of Defense (Installations and Environment)   57
     Defense Logistics Agency                                            60
Background
    Document Automation and Production Service. The Defense Logistics
    Agency (DLA), which is headquartered at Fort Belvoir, Virginia, provides supply
    support and technical and logistics services to the Services, other DoD
    Components, and Federal agencies. A field activity of DLA, the Document
    Automation and Production Service (DAPS), provides automated information
    products and services to DoD and designated Federal activities, including imaging
    and conversion of documents to electronic media, digital warehousing,
    distribution of digital and hard copy information, and DoD-wide procurement of
    printing and duplicating. From 1992 to 1996, the Navy served as the designated
    single manager for DoD printing services. In 1996, the Navy Publication and
    Printing Service was re-designated the Defense Printing Service, transferred to
    DLA, and was subsequently renamed DAPS. DAPS employed 1,674 personnel at
    298 worldwide facilities as of October 1, 1999. The workforce represented a
    50-percent reduction of the 3,347 personnel at 342 facilities in-place on
    October 1, 1992.

    Office of Management and Budget Circular No. A-76, DoD, and Defense
    Logistics Agency Guidance. The Office of Management and Budget (OMB)
    Circular No. A-76 (OMB Circular A-76) and the OMB Circular A-76 Revised
    Supplemental Handbook establish policy and provide guidance on the process for
    conducting competitions between the Government and the private sector to
    perform support functions. The process includes: developing the performance
    work statement (PWS); issuing a solicitation that includes the PWS; developing a
    Government most efficient organization (MEO); submitting in-house and private
    sector proposals; conducting a source selection evaluation; and culminating in a
    cost comparison and decision to perform the function with Government
    employees or by contract. OMB Circular A-76 competitions usually generate
    savings through a reduction in personnel, whether the Government MEO or a
    private sector contractor wins. DoD guidance on commercial activities is
    contained in DoD Directive 4100.15, “Commercial Activities Program,”
    March 10, 1989; DoD Instruction 4100.33, “Commercial Activities Program
    Procedures,” September 9, 1985; and “Department of Defense Strategic and
    Competitive Sourcing Programs Interim Guidance,” April 3, 2000. The guidance
    provides DoD policy for seven selected areas of the DoD commercial activities
    program including strategic sourcing, issuing solicitations, potential conflicts of
    interest, source selection evaluation boards, OMB Circular A-76 costing, the
    administrative appeal process, and tracking of completed strategic and
    competitive sourcing programs. The DLA Commercial Activities (A-76)
    Competition Guidebook is intended to provide additional guidance for all DLA
    field activities performing OMB Circular A-76 studies to help DLA reduce
    infrastructure costs while improving support services. The guidebook organizes
    the OMB Circular A-76 process into 10 steps.

    DAPS A-76 Competition. Section 350 of the Strom Thurman National Defense
    Authorization Act for Fiscal Year 1999 (Public Law 105-261) (the Act) mandated
    that DLA independently review all DAPS functions for commercial competition
    or outsourcing. The review requirements included a determination of customer
    requirements, best business practices, options to provide the most cost-effective
                                         1
           services, and an appropriate DAPS management structure. On April 30, 1999, the
           DLA Director submitted a Klynveld Peat Marwick Goerdeler (KPMG)
           independent functional review of DAPS to Congress in response to the Act. The
           functional review concluded that no DAPS functions were inherently national
           security and all functions should be considered for transfer to other entities. As
           part of the submission, the DLA Director notified Congress of plans to subject
           DAPS functions to public/private competition under OMB Circular A-76
           guidelines. DLA formally announced the start of the OMB Circular A-76
           competition on August 3, 1999. DAPS documents indicated the scope of the
           OMB Circular A-76 competition included approximately $164 million per year of
           electronic output and document automation services performed at 260 continental
           U.S. locations. A total of 1,400 full-time equivalent personnel positions
           performed the functions included in the OMB Circular A-76 competition. The
           electronic output and document automation services represented approximately
           43 percent of DAPS workload. The competition did not include DAPS offset
           printing workload performed by the Government Printing Office (GPO) and GPO
           contractors at an annual cost of about $106 million. DAPS indicated that the
           study cost approximately $5.4 million to conduct. The initial competition
           timeline was 24 months from announcement to tentative decision. The
           competition was 1 of 19 OMB Circular A-76 competitions announced by DLA
           since 1998.1 See Appendix C for a chronology of the DAPS competition.

                   Source Selection Advisory Council. A source selection advisory council
           (SSAC) monitored the progress of the OMB Circular A-76 competition. The
           council was formed pursuant to the direction of the source selection authority, the
           Vice Director, DLA. The SSAC was tasked to determine the best value
           contractor offer in terms of technical feasibility and cost and forward its
           recommendation to the source selection authority. The SSAC consisted of seven
           members including two customer representatives of DAPS services. Seven
           additional personnel including the DAPS Director, the DAPS commercial activity
           study manager, and the contracting officer; and DLA headquarters legal advisor,
           public affairs official, human resources official, and information technology
           advisor served the SSAC in an advisory role.

                   Source Selection Evaluation Board. The source selection authority
           assigned the Defense Reutilization and Marketing Service (DRMS) contracting
           office responsibility for the procurement. In addition, the source selection
           authority created a source selection evaluation board located at DRMS to review
           the technical aspects and management structure of contractor proposals. The full
           source selection evaluation board was tasked to receive and evaluate panel
           recommendations and forward the final recommendation to the SSAC.

           Contract Solicitation for the DAPS A-76 Competition. The DRMS contracting
           office issued solicitation SP4410-01-R-4000 on March 30, 2001. The solicitation
           called for one award covering all DAPS production functions and specified an
           indefinite delivery, indefinite quantity contract containing fixed-price line items,
           and some cost-reimbursable items. The solicitation called for a base performance
           period of 3 years with two 12-month option periods and two 12-month incentive

1
    As of June 30, 2002, DLA had completed 10 of the competitions.

                                                     2
           award terms. The solicitation specified a total performance period of 7 years and
           9 months, which included a 9-month transition period. DRMS and DAPS
           conducted a pre-proposal conference on April 27, 2001, and site visits of
           representative DAPS locations on April 28, 2001.

           Source Selection Decision for Document Automation and Production Service.
           On January 18, 2002, DLA announced that it planned to implement the MEO, as
           no contractors submitted proposals in response to the solicitation. The MEO
           proposed * personnel at 119 facilities2 to be implemented by October 2002. The
           MEO cost was estimated at $ * over 7 years.

           Congressional and DoD Employee Concerns About the DAPS A-76
           Competition. On January 31, 2002, Representative Joel Hefley, Chairman of the
           House of Representatives Subcommittee for Military Readiness, Committee on
           Armed Services, requested that the Office of the Inspector General of the
           Department of Defense review the DAPS A-76 solicitation to determine why no
           contractors submitted proposals. Representative Hefley also asked why the
           solicitation did not include offset printing work (see Appendix B). On April 22,
           2002, Senator George Allen requested that the Office of the Inspector General of
           the Department of Defense examine various issues a DAPS employee raised
           regarding the OMB Circular A-76 competition. The employee believed that the
           competition was having an adverse effect on DAPS employees, that DAPS
           management did not keep employees informed of the MEO development, and that
           the MEO could not provide adequate services to DoD Components.

Objectives
           The overall objective was to determine whether DLA fairly and impartially
           conducted the OMB Circular A-76 process for the DAPS public/private
           competition. We also determined the reasons for the private sector non-
           responsiveness to the public/private competition solicitation. We also reviewed
           the management control program as it related to the overall objective. See
           Appendix A for a discussion of the audit scope and methodology and the review
           of the management control program.

Other Matters of Interest
           We commend the contracting officer for the extensive documentation in the
           contract file. The contracting officer wrote numerous memorandums for the
           record that provide an excellent summary of the contracting officer’s review of
           the solicitation and analysis of contractor concerns with the solicitation.



*
    Government commercial privileged or personal privacy information omitted.
2
    DAPS announced that the certified MEO would be implemented at 119 locations. The certified MEO
    management plan listed 120 staffed locations.



                                                     3
            A. Adequacy of the Solicitation
               for Competition
            The solicitation for the DAPS public/private competition discouraged
            private firms from submitting offers in competition with the Government’s
            MEO. The condition occurred because DLA:

                •   withheld specific workload and staffing information from
                    prospective contract offerors;

                •   offered to guarantee only 10 percent of yearly estimated work;

                •   did not provide specific historical information related to
                    maintenance costs, and did not offer leased equipment to private
                    offerors; and

                •   excluded from the solicitation offset printing work presently
                    forwarded to the GPO.

            As a result, private firms considered the competition high risk and did not
            submit proposals.

Solicitation Issuance and Review
     The solicitation for the DAPS public/private competition discouraged private
     firms from submitting offers in competition with the Government’s MEO.

     DLA Industry Days. On September 30, 1999, and June 13, 2000, DLA held
     industry days to provide potential offerors an overview of the background and
     functions of DAPS as well as the OMB Circular A-76 process. At the first
     industry day, 30 individuals representing 16 public and private organizations
     attended, while 56 individuals representing 30 public and private organizations
     attended the second industry day. At both industry days, potential offerors were
     encouraged to submit questions and complete questionnaires that would serve as
     the basis of the solicitation market research. Contractor-submitted questions
     requested details regarding volume/workload and staffing information, inclusion
     of offset printing in the competition, and inclusion of Government-furnished
     equipment in the solicitation. The DRMS responses stated that pertinent data
     would be included in the solicitation; noted that DAPS would continue to manage
     GPO work; and advised that Government-furnished equipment decisions had not
     been made. The DRMS response made no specific comment regarding staffing
     information.

     OMB Review of Solicitation. On September 1, 2000, the OMB Office of
     Federal Procurement Policy notified DLA that it reviewed the draft DAPS
     solicitation PWS and concluded that the PWS did not meet performance-based
     service contracting requirements. In response to the review, DLA revised the
     draft solicitation to address OMB concerns. However, DAPS study managers

                                          4
           stated that many solicitation requirements could not be revised because of DAPS
           memorandums of understanding with various bases and commands that detailed
           how work was to be performed at those locations.

           Source Selection Organization. On March 8, 2001, the source selection
           authority approved the source selection plan. The source selection plan called for
           a single, nationwide procurement for DAPS functions. The source selection
           organization, as described in the Source Selection Plan for the DAPS A-76
           competition, consisted of the source selection authority, the SSAC situated at
           DLA headquarters, and a source selection evaluation board situated at DRMS.
           On March 30, 2001, the DRMS contracting office issued solicitation
           SP4410-01-R-4000.

           Other Changes to Solicitation. During the draft solicitation process and after
           solicitation SP4410-01-R-4000 release, private sector companies, the MEO, and
           the Independent Review Officer (IRO) team asked 399 questions regarding the
           solicitation. Responses to questions were included in 9 of 15 solicitation
           amendments issued.

           IRO Review of Solicitation PWS. The IRO team submitted 120 written
           questions from May through September 2001 to the contracting officer regarding
           the PWS.3 The independent review concluded that the DAPS PWS was
           responsive to agency requirements and met the requirements of the DLA IRO
           Guide. However, the IRO discovered PWS weaknesses including inconsistencies
           between the workload technical exhibits and the solicitation schedule and lack of
           clarity regarding Government-furnished equipment. The DAPS PWS
           development team made corrections to the PWS in response to the IRO questions.

           Private Sector Interest in Solicitation. During the draft solicitation process and
           after solicitation SP4410-01-R-4000 release, the contracting officer became aware
           of two potential private sector teams having serious interest in competing for the
           work: IKON/Cannon (IKON) and RR Donnelley/DynCorp (RR Donnelley). On
           May 21, 2001, the IKON team notified the contracting officer that it would not
           submit an offer. On August 31, 2001, RR Donnelley sent a memorandum to the
           contracting officer stating that it would not submit an offer. RR Donnelley
           identified seven primary areas of concern with the solicitation that significantly
           conflicted with printing industry commercial contracting principles. Those
           concerns were: inadequate volume/workload information, failure to include GPO
           offset printing work, lack of a sufficient guaranteed minimum range, DLA
           nondisclosure of detailed DAPS staffing information, lack of detailed site visits,
           nondisclosure of facility costs, and nondisclosure of DAPS leased equipment
           costs.

           Solicitation Closure. On September 7, 2001, the contracting officer issued
           SP4410-01-R-4000 Amendment 15 after no private industry offers were received.
           Amendment 15 requested prospective offerors to contact the contracting officer
           and state why no offers were submitted. The contracting officer began an analysis

3
    The DLA Chief of Internal Review served as IRO. The IRO team consisted of the IRO and four to five
    Arthur Andersen, LLP, support service contract personnel.



                                                     5
            of the areas of concern in the RR Donnelley memorandum to determine if the
            solicitation was unduly restrictive in accordance with title 32, part 169a, Code of
            Federal Regulations (C.F.R.).4 The contracting officer subsequently discussed the
            solicitation with representatives of RR Donnelley and IKON on September 17
            and 19, 2001. IKON representatives informed the contracting officer that the
            solicitation was too cumbersome and unreasonable. On October 1, 2001,
            RR Donnelley sent a second letter to the contracting officer identifying three areas
            of remaining concern: lack of adequate workload information in the solicitation,
            applicability of the Service Contract Act, and GPO offset printing.

            Solicitation Review Requirements. “Commercial Activities Program
            Procedures,” 32 C.F.R. 169a, section 17, “Solicitation Considerations,” paragraph
            (i) and section 5.6.10., DoD Instruction 4100.33 both state:
                         If no bids or proposals, or no responsive or responsible bids or
                         proposals are received in response to a solicitation, the in-house cost
                         estimate shall remain unopened. The contracting officer shall examine
                         the solicitation to ascertain why no responses were received.
                         Depending on the results of this review, the contracting officer shall
                         consider restructuring the requirement, if feasible, and reissue it under
                         restricted or unrestricted solicitation procedures, as appropriate.

            Contracting Officer Briefings to SSAC. On October 15, 2001, the contracting
            officer briefed the DLA SSAC on whether the solicitation should be reissued.
            The contracting officer agreed with the RR Donnelley concerns relating to
            inadequate volume/workload information, lack of a sufficient guaranteed
            minimum range, and DLA nondisclosure of detailed DAPS staffing information,
            facility costs, and leased equipment costs. The contracting officer concluded the
            solicitation was unduly restrictive and recommended reissue. The DAPS A-76
            study manager opposed reissue, stating that a reissued solicitation would cost
            DAPS $869,477 to collect updated workload data and submit a new MEO offer.
            However, the SSAC voted to reissue the solicitation. On October 16, 2001, the
            contracting officer issued a memorandum for the record of determination and
            finding to reissue the solicitation. On October 29, 2001, shortly after briefing the
            source selection authority, the contracting officer received a call from the DLA
            legal counsel, who requested that the contracting officer reconsider the
            determination that the solicitation was unduly restrictive. DLA legal counsel
            noted that 32 C.F.R. 169a does not give the contracting officer authority to make
            a determination on resolicitation, only to determine if it is feasible to reissue.5 On
            November 5, 2001, the contracting officer met again with the SSAC and
            recommended DLA not resolicit. The SSAC voted to support the
            recommendation. Although still agreeing with many of the RR Donnelley
            concerns, the contracting officer concluded it was highly unlikely offers from
            private firms would be received even if the solicitation deficiencies were
            corrected and the workload was re-baselined. We believe that DoD should issue


4
    The requirement is replicated in section 5.6.10., DoD Instruction 4100.33.
5
    Neither OMB Circular A-76 nor the OMB Circular A-76 Revised Supplemental Handbook mentions 32
    C.F.R. 169a.

                                                        6
           guidance in accordance with 32 C.F.R. 169a, section 17, to clarify contracting
           officer and source selection authority actions in competitive sourcing solicitations
           where no proposal is received.

           Applicability of the Service Contract Act. The contracting officer believed that
           RR Donnelley would submit a proposal only if a Service Contract Act waiver
           were granted. However, the contracting officer and the SSAC agreed that no
           basis for a Service Contract Act waiver existed and none should be issued. On
           November 28, 2001, the source selection authority met with representatives of the
           RR Donnelley team and informed them that the solicitation would not be reissued.

Solicitation Information
           Specific solicitation issues are summarized below. See Appendix D for details of
           the areas and for other issues the potential offerors and DAPS workforce noted.

           Workload and Staffing Information. DLA withheld specific workload and
           staffing information from prospective contract offerors. Data regarding workload
           volume were not in a format that allowed firms to prepare a pricing proposal.
           DAPS objected to the release of Defense Working Capital Fund accounting
           system workload and pricing information that it claimed was proprietary. The
           MEO management plan stated that the MEO development team used the DAPS
           Defense Working Capital Fund data in conjunction with PWS technical exhibits
           and other MEO data to evaluate the DAPS operations. After solicitation closure,
           the contracting officer concluded that private sector offerors should have been
           allowed to obtain more up-to-date and detailed volume workload information to
           estimate costs from workload.

           Potential offerors sought existing staffing information such as the number of
           personnel at a given site, type of work performed, skills possessed, and employee
           pay grade and classification. DAPS management determined that this was
           information proprietary to the MEO. An August 30, 2001, a DAPS Director
           memorandum to the contracting officer concluded that no personnel staffing
           information relative to individual DAPS locations should be released nor was
           DAPS legally required to release such information. The memorandum noted a
           May 1984 U.S. District Court for the District of Columbia case as justification
           supporting the Government’s right to deny contract offerors such information.6
           The DRMS contracting officer deferred to the DAPS management decision. The
           contracting officer later concluded that staffing information is not subject to
           Freedom of Information Act protection and believed that the 1984 case was not a
           valid basis for denying information to the public regarding staffing because the
           information that offerors were seeking was not as detailed as the information
           denied release in the 1984 case. The DLA general counsel supported the DAPS
           determination, noting the contracting officer’s conclusion had no legal basis. We
           believe that DoD should develop competitive sourcing guidance specifying
           requirements for inclusion of existing Government staffing information in OMB
           Circular A-76 competitive sourcing solicitations.

6
    Morrison-Knudsen Company, Inc. v. Department of the Army, 595 F.Supp. 352 (D.D.C.1984).



                                                   7
            DAPS pursued a policy of voluntary retirements, incentive offers, and downsizing
            to decrease personnel positions, including positions subject to the OMB
            Circular A-76 competition. The downsizing process was ongoing during the term
            of the solicitation and the OMB Circular A-76 competition. DAPS documents
            indicated that 40 of the 260 study locations were closed and that the 1,400 in-
            place personnel at competition announcement were reduced to 918 personnel at
            competition conclusion. The solicitation was unclear about the total number and
            closure of locations,7 and included no personnel information. Neither the
            contracting officer nor the IRO was aware of the scope of the personnel
            reductions, only that DAPS was implementing a downsizing policy. The
            contracting officer stated that DAPS location and personnel reductions were not
            communicated to the contracting office. The DAPS A-76 study manager stated
            that the downsizing did not change the scope of the solicitation requirement. An
            August 30, 2001, DAPS Director memorandum to the contracting officer stated
            that DAPS was in the process of downsizing its organization to reflect the current
            business levels, which could lead to similar staffing levels being projected in the
            MEO.

            Potential offerors requesting staffing information may not have necessarily
            needed the information to make a proposal, but were seeking an alternative means
            to understand the volume of work that needed to be produced under the contract
            because of the Government’s inability to provide detailed workload information.
            Subsequently, DAPS could have provided staffing information that did not give
            direct costing information but would be appropriate to determine the scope of
            work. We concluded that potential offerors should have been advised of the
            closed sites and the reduction of overall DAPS staffing.

            Guaranteed Minimum. DLA offered to guarantee only 10 percent of yearly
            estimated work in the solicitation. The 10-percent minimum was included
            because indefinite delivery, indefinite quantity type contracts require a minimum
            and a maximum amount of compensation for any given performance period. The
            solicitation maximum was 150 percent. The minimum was low because of the
            uncertainty of expenditures because of changing technology in the printing
            industry. As the result of potential high initial outlays, RR Donnelley considered
            the 10-percent minimum insufficient. The contracting officer recommended that
            the minimum amount be increased to more than 10 percent if the solicitation was
            reissued. We agree that a contractor would likely need a higher revenue
            guarantee because of the uncertain nature of the DAPS workload of duplication
            and reproduction orders.

            Equipment and Maintenance Costing Information. DLA did not provide
            specific historical information related to maintenance costs and did not offer
            leased equipment to private offerors. DAPS leased equipment was valued at $ *
            from private suppliers and represented * percent of existing equipment value at

7
    Three solicitation technical exhibits listed, variously, between 239 to 262 total DAPS locations and
    between 5 to 39 of the total locations as being either “closed,” “closing,” “non active,” “never opened,” or
    “rolled-up” into other locations.
*
    Government commercial privileged or personal privacy information omitted.

                                                         8
DAPS locations. On June 8, 2000, the source selection authority approved an
SSAC recommendation making leased equipment available to potential
commercial offerors and the Government’s MEO, with the service provider
providing equipment maintenance. DAPS was instructed to verify all equipment
information for inclusion as a technical exhibit in the second draft posting of the
PWS. On November 15, 2000, the SSAC agreed with a DAPS recommendation
not to offer the leased equipment to private firms and to cost the leases for the
MEO offer. On January 10, 2001, DAPS provided the contracting officer a cost
benefit analysis that concluded that offering the leased equipment would not
provide offerors an incentive to reduce equipment usage. However, the analysis
provided no documentation or methodology to support the estimated savings and
provided no alternatives to allow offers on portions of the existing leased
equipment. The March 30, 2001, solicitation did not offer the leased equipment
and did not provide maintenance records for the existing leased equipment. Even
though DLA was not legally required to disclose equipment leasing and
maintenance costs, the contracting officer determined after solicitation closure
that it was feasible to provide historical maintenance costs in a technical exhibit,
and that contractors were to be responsible for maintenance of Government-
owned equipment. The contracting officer also recommended after solicitation
closure that the leased equipment be provided at no cost as Government furnished
to all offerors.

Exclusion of Offset Printing. DLA did not include in the solicitation offset
printing work presently forwarded to GPO. The exclusion of offset printing work
discouraged potential offerors from competing.

       Statutory Requirements for Offset Printing. Section 501, title 44,
United States Code (44 U.S.C. 501), states:
           All printing, binding, and blank-book work for Congress, the Executive
           Office, the Judiciary, other than the Supreme Court of the United
           States, and every executive department, independent office and
           establishment of the Government, shall be done at the Government
           Printing Office (GPO), except (1) classes of work the Joint Committee
           on Printing considers to be urgent or necessary to have done elsewhere;
           and (2) printing in field printing plants operated by an executive
           department, independent office or establishment, and the procurement
           of printing by an executive department, independent office or
           establishment from allotments for contract field printing, if approved
           by the Joint Committee on Printing. Printing or binding may be done at
           the Government Printing Office only when authorized by law.

       Section 195, title 10, United States Code, (10 U.S.C. 195), states:
           The Defense Automated Printing Service shall comply fully with the
           requirements of section 501 of title 44 relating to the production and
           procurement of printing, binding, and blank-book work.

Federal Acquisition Regulation (FAR) Subpart 8.8, which implements
44 U.S.C. 501 and 10 U.S.C. 195, states that Government printing must be done
by or through GPO. FAR mandated exceptions include situations where GPO


                                         9
cannot provide the service, printing is done in field printing plants operated by
Executive agencies, printing is acquired by an Executive agency from allotments
for contract field printing, or printing is specifically authorized by statute to be
done other than by GPO.

        DoD Guidance on Offset Printing. DoD policy requires procurement of
all printing and duplicating from private sector sources shall be through the GPO.
A March 31, 1997, Secretary of Defense memorandum to the Director of DLA
directed DLA to ensure that the operations of DAPS were in conformance with
the law and with the guidance OMB issued regarding title 44 of the United States
Code.

        Department of Justice Analysis. An April 11, 1996, White House Chief
of Staff memorandum to heads of Executive departments and agencies advised
that OMB would assess the cost effectiveness of the current printing and
duplicating arrangements and make recommendations for improvements. In May
1996, the Department of Justice Office of Legal Counsel issued the opinion that
Congress could not constitutionally mandate that the agencies of the Executive
branch use GPO. The FAR has not been modified to reflect the Department of
Justice position. The opinion notes that congressional expansion of GPO that
included nearly all the printing, binding, and copying the Executive branch
required is unconstitutional in that it violates the separation of powers. The
opinion states that:
           To the extent that 44 U.S.C. Subsection 501 and 501 note require all
           executive branch printing and duplicating to be procured by or through
           the GPO, those statutes violate constitutional principles of separation of
           powers . . . we perceive little or no risk of liability or sanction to
           contracting officers who act consistently with this opinion.

        OMB Policy on GPO Offset Printing. In a May 3, 2002, memorandum,
the Director of OMB states that Executive branch agencies are no longer required
to make use of GPO services and can outsource printing and duplicating needs.
The Director concluded that Executive branch agencies could realize significant
cost savings if they consider alternatives to GPO for printing and copying work
and that Executive branch departments and agencies should comply with the
memorandum upon publication of an implementing FAR rule. The memorandum
affirmed the 1996 opinion of the Justice Department Office of Legal Counsel that
Congress cannot require Executive branch agencies to use GPO facilities. While
the OMB policy was not applicable at the time of the DAPS study, we believe
DoD should develop guidance in conjunction with OMB policy on the
applicability of subjecting DoD printing provided to GPO to competitive sourcing
procedures.

        DLA Discussions and Determination on Offset Printing Inclusion.
The DAPS Director stated that DAPS and DLA always understood that traditional
offset printing would not be included in the competitive sourcing initiative. The
DAPS Director noted that an April 27, 1999, DLA briefing to the Under Secretary
of Defense for Acquisition, Technology, and Logistics noted the results of the
KPMG study of DAPS functions and sourcing options for DAPS, and that all
options assumed traditional offset printing would continue to be provided to GPO.
                                         10
    A May 3, 1999, memorandum from the DAPS Director to the Public Printer, GPO
    stated that while DAPS would comply with OMB Circular A-76, the DoD-GPO
    relationship would be unchanged with traditional printing requirements
    continuing to be placed through GPO.

    DAPS and DLA personnel stated that while the offset printing issue was
    discussed in the SSAC, the SSAC decided not to include the GPO offset printing
    work as the work was already contracted out by GPO, and DAPS had no present
    in-house capacity to perform the offset work in the event that the DAPS MEO
    won the competition. DLA legal personnel stated that they concluded DLA could
    not legally include the GPO work, and solicitation inclusion of offset printing
    would require submission to GPO for approval and could result in a separate
    solicitation. DAPS at its own discretion maintained approximately $3.18 million
    (3 percent of total) offset printing work in-house. The in-house offset printing
    was not included in the OMB Circular A-76 competition. Neither DLA nor
    DAPS had documented any of the reasons stated to us for not including in the
    solicitation offset printing work to GPO. The option of requesting GPO approval
    and the fact that some offset printing work is performed in-house indicates DLA
    did have at least limited discretion in the disposition of the offset printing work at
    the time of the solicitation. If the GPO work had been offered, private offerors
    may have been more likely to compete for DAPS work.

    Single Contract Decision. DAPS contracted with consulting firms Booz-Allen-
    Hamilton and CAP Ventures to provide market research regarding the type,
    scope, and length of a DAPS contract. The DAPS consultants contacted nine
    potential contractors during the market research period. Of the nine potential
    contractors, four preferred a single nationwide contract, four preferred
    regionalized contracts, and one was undecided. Based on the market research,
    DLA concluded it was in the Government’s best interest to structure the
    competition for one nationwide contract. On March 8, 2001, the source selection
    authority signed the DAPS acquisition plan calling for a single procurement of
    DAPS functions. Benefits of a single national contract included the following.

       •   Economies of scale would result in lower cost to the Government.

       •   It would allow transition to different workload functions.
       •   A single service provider would have more incentive to provide different
           services, be more adaptable to change, and would require less Government
           overhead.

       •   A single service provider using digitalized document technology would be
           able to distribute to end users over wide areas and coordinate the
           production of homogeneous operations.

Management Comments on Finding A and Audit Response
    Summaries of management comments on finding A and our audit response are in
    Appendix E.



                                          11
Recommendations, Management Comments, and Audit
  Response
    Redirected and Renumbered Recommendations. As a result of office of
    Deputy Under Secretary of Defense (Installations and Environment) comments,
    we renumbered draft report Recommendation A.1.c. as Recommendation A.2. and
    redirected it to the Director for Administration and Management. We renumbered
    draft report Recommendations A.2.a. and A.2.b. as A.3.a. and A.3.b.

    A.1. We recommend that the Deputy Under Secretary of Defense
    (Installations and Environment) issue policy and guidance that clarifies:

           a. The extent that Government staffing and workload information
    should be included in Office of Management and Budget Circular A-76
    competitive sourcing solicitations.

            b. Title 32, Code of Federal Regulations, part 169a, section 17 and
    DoD Instruction 4100.33 guidance for contracting officer and source
    selection authority actions in competitive sourcing solicitations where no
    proposal is received.

    Deputy Under Secretary of Defense (Installations and Environment)
    Comments. Responding for the office of the Deputy Under Secretary of Defense
    (Installations and Environment), the Director, Competitive Sourcing and
    Privatization concurred with the recommendations stating that if information is
    available for use by the MEO team, in any manner, that information should be
    made available to all offerors. The Director stated that recent competitions where
    private sector offers were received but determined to be non-responsive combined
    with cases where no proposal is received requires additional guidance. The
    Director noted that DoD would ensure the recommendations would be resolved
    either through the revised OMB Circular A-76 or in DoD guidance that
    implements the revised circular.

    A.2. We recommend that the Director, Administration and Management
    issue policy and guidance that clarifies the applicability of subjecting DoD
    printing provided to the Government Printing Office to competitive sourcing
    procedures.

    Deputy Under Secretary of Defense (Installations and Environment)
    Comments. Responding for the office of the Deputy Under Secretary of Defense
    (Installations and Environment), the Director, Competitive Sourcing and
    Privatization partially concurred with a draft report recommendation made to his
    office but noted that the guidance should be the responsibility of the office of the
    Director for Administration and Management, who has functional determination
    of printing.




                                         12
Audit Response. Based on the comments of the office of the Deputy Under
Secretary, we redirected the recommendation to the Director, Administration and
Management and request comments from the Director, Administration and
Management by June 10, 2003.

A.3. We recommend that the Director, Defense Logistics Agency consider
the results of this audit and decide a future course of action. The options
include:

       a. Continue implementation of the most efficient organization
structure and reannounce the Office of Management and Budget
Circular A-76 competition within 2 years and include reliable staffing and
workload information and potential conflict of interest safeguards (see
finding B).
      b. Include offset printing functions in the alternative described in
Recommendation A.3.a. or separately solicit such functions at some future
time.

DLA Comments. The DLA Chief Information Officer partially concurred with
the recommendations. DLA stated that it would take into consideration the results
of the Inspector General of the Department of Defense (IG DoD) audit, and
decide by June 30, 2004, after completion of a DLA post-MEO review of the
DAPS function, on a future course of action. The future action may include
reannouncing the OMB Circular A-76 competition at an appropriate time. DLA
also noted that that a future decision to resolicit will be contingent upon factors
including technological advances and legal restraints. DLA stated that it will
consider the offset printing alternative in conjunction with
Recommendation A.3.a., should the FAR be modified to allow work currently
procured through the GPO to be purchased directly from commercial sources.

Audit Response. Although the DLA only partially concurred, the DLA
comments are responsive and no additional comments are required.




                                    13
                    B. Potential Conflicts of Interest
                    The same private sector consultant personnel developed the PWS and
                    prepared the MEO proposal for the DAPS public/private competition.
                    This condition occurred because * .




                    As a result, the potential conflicts and noncompliance compromised the
                    appearance of integrity and fairness of the OMB Circular A-76
                    competition.

Use of Support Service Contractor Personnel in PWS and
  MEO Development
           The DAPS public/private competition violated DoD interim guidance to avoid
           potential conflicts of interest by allowing the same private sector consultant
           personnel to develop both the PWS and prepare the MEO proposal.

           DoD Interim Guidance. The April 3, 2000, DoD interim guidance requires that
           private sector consultants assisting DoD Components in preparing both a PWS
           and a management plan take sufficient measures to avoid potential conflicts of
           interest in accordance with FAR Part 9 or the appearance of such conflicts. Those
           measures shall include, at a minimum, sufficient “firewalls” within the private
           sector consultant to prevent the same individuals from both developing the PWS
           and assisting in preparation of the MEO. The guidance does not require separate
           Government personnel teams for developing the PWS and the MEO.

           General Accounting Office Case Decisions. On May 29, 2002, the General
           Accounting Office rejected a Department of the Navy request to reconsider
           General Accounting Office decision B-286194 of December 5, 2001. The General
           Accounting Office sustained a contractor protest challenging the Navy’s OMB
           Circular A-76 determination that it would be more economical to perform base
           operations and support services in-house at the Naval Air Station, Lemoore,
           California, than to contract for those services with the protestor. Further, the
           General Accounting Office sustained the protest on the basis of multiple
           procurement flaws, including the Navy’s failure to comply with the conflict of
           interest requirements of FAR Subpart 3.1. The General Accounting Office
           concluded that the Navy’s use of the same Government employees and
           consultants to develop both the PWS and the in-house management plan for



*
    Government commercial privileged or personal privacy information omitted.

                                                     14
performance by the Government’s MEO was contrary to the FAR 3.101-1
requirement that procuring agencies strictly avoid any conflict of interest or even
the appearance of a conflict of interest.

The General Accounting Office ruling of May 29, 2002 (B-286194.7), states:
           [W]e recognize that the DOD guidance, by its terms, applies only to
           individuals within a private-sector consultant firm, and not to
           government employees. Nonetheless, we fail to see how a reasonable
           argument can be made that preparation of both a PWS and MEO plan
           by consultant employees creates greater conflict of interest concerns
           than such actions by government employees. We therefore conclude
           that, just as FAR subpart 9.5 supports the prohibition set out in the
           DOD Guidance, FAR sect. 3.101-1 requires that this prohibition be
           applied to government employees. In summary, consistent with the
           DOD Guidance, we believe that the practice of generally precluding
           one competitor from establishing the ground rules applicable to all
           competitors reflects, to use the Navy’s phrase, [a] common sense
           principle that should be observed by both government and private-
           sector competitors in A-76 procurements.

The General Accounting Office stated that application of corrective actions to
other OMB Circular A-76 studies would apply prospectively. In cases where an
OMB Circular A-76 study was in process prior to the public release of the
December 2001 decision, and an agency had completed the PWS and invested
substantial time and resources in preparing the MEO in-house plan, the General
Accounting Office allowed for an agency’s reasonable exercise of discretion
alleging a conflict of interest. Because the DAPS MEO was completed and
certified on September 4, 2001, the use of the same Government employees to
develop both the PWS and the MEO management was done at the discretion of
DLA.

DLA A-76 Competitive Sourcing Office. The DLA A-76 competitive sourcing
chief stated that the office did not perform direct oversight of the DAPS A-76
competition as the office was formed only to support former Defense Logistics
Support Command components within DLA, of which DAPS was not a part.
With the dissolution of the support command in November 2001, the DLA
competitive sourcing office acquired full cognizance for policy and oversight of
all the DLA A-76 activities, including DAPS. Prior to November 2001, the DLA
competitive sourcing office provided technical support to the DAPS A-76
competition manager on PWS and MEO development. The DLA competitive
sourcing chief stated individual DLA activities are responsible for ensuring that
adequate firewalls are in place.

An April 21, 1999, Defense Logistics Support Command memorandum
established guidance to ensure the integrity of OMB Circular A-76 cost
comparison studies. The memorandum required that safeguards ensure that the
PWS and contracting officer support team members did not advise or convey
acquisition-related information to personnel on MEO development teams
including MEO support service contractors. MEO development team members
that participated in creating a command-specific MEO were deemed ineligible to


                                       15
           participate in the PWS and contracting officer support team. The guidance
           requires that safeguards be implemented early in the competitive sourcing
           process, but no later than the source selection authority ratification of the PWS.
           DAPS was not required to follow the guidance until November 2001, when the
           guidance was made applicable DLA-wide.

           Development of the PWS. DAPS established a commercial activities team on
           August 3, 1999, headed by the DAPS A-76 study manager. DAPS reached
           agreement with DRMS in August 1999 to provide contracting officer support to
           guide the DAPS A-76 solicitation and contracting processes. Contractor support
           of the commercial activities team commenced on November 29, 1999. The first
           PWS draft was released on the DRMS Web site on June 7, 2000, with a second
           draft released on July 28, 2000. A third PWS draft was released on November 8,
           2000, and a final PWS draft was provided to the contracting officer on March 29,
           2001. The finalized PWS was released as part of solicitation SP4410-01-R-4000
           on March 30, 2001. DAPS study officials noted that the PWS team consisted of
           12 DAPS employees and 20 support service contractor consultants. With
           establishment of the DAPS MEO development team, the PWS team was reduced
           by March 2001 to three Government personnel.

           Development of MEO Management Plan. The MEO team worked from
           August 2000 through May 2001 to develop the MEO and to complete
           management plan documents. The MEO development team consisted of
           9 Government and 15 support service contractor personnel who came, through
           February 2001, in piecemeal fashion from the PWS development team. The MEO
           team chief stated the nine Government personnel included one employee union
           representative. The MEO development team initiated work on a first draft of the
           MEO management plan on September 7, 2000, and completed the first draft on
           January 26, 2001. The MEO team completed a second MEO management plan
           draft on February 9, 2001. A final MEO management plan draft was completed
           on July 13, 2001, certified by the DAPS Director and submitted to independent
           review on July 16, 2001. After completion of the independent review, the DAPS
           Director and the IRO certified the MEO on September 4, 2001. The sealed MEO
           management plan was submitted to the contracting officer the same day.

           The MEO and PWS groups worked in spaces on the same office floor. Both PWS
           and MEO personnel stated that once separated, the MEO team personnel did not
           receive any PWS information not otherwise available on the DRMS solicitation
           Web site. However, contracting officer documentation notes several potential
           conflicts of interest regarding contacts between the MEO team and the residual
           PWS group.

           Booz-Allen-Hamilton Contract. On November 29, 1999, DRMS contracted
           with Booz-Allen-Hamilton Corporation by issuing task order SP4410-00-F-3000
           for $ * under General Services Administration Federal Supply Schedule contract
           GS-23F-9755H. The period of performance was 30 months from the task order
           date. The task order required Booz-Allen-Hamilton to provide comprehensive
           support to DAPS in all phases of the OMB Circular A-76 study and contract

*
    Government commercial privileged or personal privacy information omitted.

                                                     16
            action, including providing professional guidance in: data gathering and analysis;
            strategic planning; performing research in the fields of document automation and
            document management; and creating required documents including the PWS,
            management plan, the MEO, in-house cost estimate, technical performance plan,
            and transition plan. Booz-Allen-Hamilton was to assist DAPS by providing
            personnel in the gathering and analysis of all information necessary to create a
            PWS and MEO. The contract also called for Booz-Allen-Hamilton to provide
            assistance with the creation of documentation required to complete the PWS
            phase of the competition, but did not require Booz-Allen-Hamilton to complete a
            final version of the PWS. The contract noted that at the time a firewall was
            established separating the DAPS development team members continuing work on
            the final PWS and those beginning work on the MEO, Booz-Allen-Hamilton
            would devote all available consulting assistance to MEO tasks, including assisting
            in the creation of a draft and final management plan. The contract also required
            Booz-Allen-Hamilton to provide guidance and assistance to the Government
            regarding: the role of the DAPS A-76 study manager and senior DAPS and DLA
            officials; MEO changes required in response to the independent review; and
            potential or actual conflicts of interest, or procurement integrity issues involved in
            the OMB Circular A-76 study including solutions regarding which Government
            employees could participate in PWS or MEO development and then participate in
            the proposal evaluation process. DAPS officials stated that Booz-Allen-Hamilton
            was required to raise procurement integrity issues and provide detailed solutions
            to possible conflicts because DAPS study personnel were not familiar with details
            of competitive sourcing firewall requirements.

            Appointment of Contracting Officer’s Representatives. On March 3, 2000,
            the DRMS contracting officer8 issued a memorandum appointing a DAPS PWS
            team member as the contracting officer’s representative for task order
            SP4410-00-F-3000. On October 30, 2000, the DRMS contracting officer
            appointed the DAPS MEO development team leader as the task order contracting
            officer’s technical representative for SP4410-00-F-3000.

            Participation of Booz-Allen-Hamilton Personnel in PWS and MEO
            Development. DAPS A-76 study managers identified 15 Booz-Allen-Hamilton
            personnel that supported the OMB Circular A-76 study on a full-time or part-time
            basis. DAPS and Booz-Allen-Hamilton personnel interviewed confirmed that
            most of the Booz-Allen-Hamilton personnel worked on both PWS and MEO
            development.9
            DAPS PWS-MEO Firewall. DAPS study management initiated a firewall
            governing PWS and MEO development in March 2001. The firewall was based




8
    The same contracting officer responsible for the DAPS cost competition also issued the task order for
    Booz-Allen-Hamilton support.
9
    An exception was the Booz-Allen-Hamilton lead analyst on the MEO team, who was not part of the PWS
    development but did aid in OMB Circular A-76 training of DAPS PWS and MEO team personnel.



                                                       17
        on prior direction of the SSAC and verbal guidance from DLA headquarters.10
        The primary aspect of the firewall was to remove access to PWS data and prohibit
        return to the PWS development team of any Government or support service
        contractor employee on the MEO development team. The firewall did not
        prohibit Government or support service contractor employees working on the
        MEO development from formally working on the PWS, as long as those
        employees transferred to the MEO development team by firewall commencement.
        The DRMS contracting officer stated that she was not aware of the DoD interim
        guidance. The DAPS contracting officer’s representative for Booz-Allen-
        Hamilton stated that while aware of the DoD interim guidance, the representative
        was not aware of the details of the DoD interim guidance as it related to support
        services contractor participation. The contracting officer’s representative
        believed that the DAPS firewall plan and SSAC review and approval of the plan
        took into account the DoD interim guidance.
        Booz-Allen-Hamilton Advice on Firewalls. The Booz-Allen-Hamilton project
        managers stated that Booz-Allen-Hamilton was aware of the DoD interim
        guidance requirements and verbally recommended to the DAPS study manager
        that the PWS and MEO personnel be separated and that the MEO team not be
        composed of Booz-Allen-Hamilton personnel that had worked on the PWS. The
        Booz-Allen-Hamilton project managers stated that the DAPS study manager
        rejected the request. Booz-Allen-Hamilton claimed that while the DAPS decision
        may have contradicted the April 2000 DoD interim guidance, the decision did not
        contradict the contract terms and that Booz-Allen-Hamilton fully complied with
        the contract. The DAPS study manager stated that Booz-Allen-Hamilton
        managers advised him of the pending interim guidance but noted that it would not
        affect the DAPS study. The DAPS study manager claimed that Booz-Allen-
        Hamilton requested that its personnel continue to support DAPS on PWS
        requirements after firewall implementation at additional cost. The study manager
        decided not to modify the contract because of the potential cost to have new
        Booz-Allen-Hamilton personnel perform the MEO development, or alternatively,
        having to hire a new contractor to assist in MEO development. The contracting
        officer was not aware of the Booz-Allen-Hamilton discussion with the DAPS
        study manager. Instead, DAPS implemented a firewall to prevent any
        Government or contractor personnel from returning to the PWS group once they
        joined the MEO development group. The contracting officer’s representative
        stated that Booz-Allen-Hamilton personnel advised the representative that the
        firewall was more stringent than those on previous OMB Circular A-76
        engagements, and that development of the MEO by the people who developed the
        PWS was part of the Government’s advantage in the OMB Circular A-76 process
        and consistent with past OMB Circular A-76 studies that Booz-Allen-Hamilton
        had performed. We found no documentation on either the DAPS or Booz-Allen-
        Hamilton explanations for not keeping personnel involved in PWS development
        from being involved in development of the MEO.

10
 On August 22, 2000, the SSAC approved application of the firewall for implementation at Web site
 posting of the third PWS draft in November 2000. DLA legal personnel stated that the firewall became
 active in January 2001 when the MEO team moved into offices separate from the PWS team. However,
 Booz-Allen-Hamilton personnel statements and documentation indicated that the firewall did not become
 active until March 2001.

                                                  18
           Other Support Service Contract Consultants. DAPS used three other support
           service contract consultant firms in the development of the PWS and MEO
           through six contracts with a total value of $134,048. One of the three consultant
           firms prepared both PWS and MEO documents. None of the contracts were
           modified to separate the personnel. The DAPS study manager noted that one
           RWD Associates employee participated in creation of both PWS and MEO
           documents. The contracting officer’s representative noted that five total CAP
           Ventures, RWD Associates, and Strategic Staffing personnel performed PWS
           research.

                   CAP Ventures. DAPS acquired consulting services costing $ * from CAP
           Ventures, Incorporated for the DAPS A-76 study. On October 5, 2000, Fleet
           Industrial Supply Center Detachment Philadelphia-Mechanicsburg issued
           N00140-01-M-M122 to provide CAP Ventures consulting services support to
           DAPS from October 5 through November 30, 2000. The statement of work
           required CAP Ventures to perform a critical analysis of DAPS production
           standards and equipment, provide recommendations on automating DAPS, and
           provide DAPS a mock proposal on MEO methods to accomplish the PWS and the
           number of employees required to perform the work. DAPS contract
           SA4705-01-M-0001, January 8, 2001, provided $ * for CAP Ventures technical
           and specialist advice to the DAPS MEO team with regard to interpretation of
           production models described in the mock proposal. Defense Distribution Center
           New Cumberland, Pennsylvania, contract SP3100-01-M-3007, March 13, 2001,
           provided $ * for CAP Ventures personnel to attend meetings related to the DAPS
           competition. Defense Distribution Center New Cumberland contract SP3100-01-
           M-3012, April 19, 2001, provided $ * for CAPS Ventures DAPS MEO team tasks
           including reviewing of OMB Circular A-76 documentation, optimizing use of
           planned MEO equipment, and determining related costs. We concluded that CAP
           Ventures did not appear involved in development of the PWS or MEO, but rather
           provided advice, and thus would not be disqualified according to the DoD interim
           guidance.

                  RWD Associates. On September 15, 1999, DLA headquarters issued
           contract SP4700-99-M-0535 to RWD Associates. Contractual tasks included
           gathering and analyzing DAPS production and financial data, assisting with the
           development of the PWS, and providing data necessary for building the
           Government’s MEO.

                  Strategic Staffing. Fleet Industrial Supply Center Detachment
           Philadelphia-Mechanicsburg issued delivery order N00140-00-F-M279 under
           General Services Administration Federal Supply Schedule contract
           GS-23-F-9721H, June 20, 2000, to Strategic Staffing to provide for clerical
           support to the DAPS A-76 development team. The clerical support would not be
           disqualified according to the DoD interim guidance.




*
    Government commercial privileged or personal privacy information omitted.



                                                     19
Potential DAPS Employee Conflicts of Interest in PWS and
MEO Development
           The MEO certifying official determined study scope and directed PWS
           development tasks. In addition, PWS development team contacts with MEO
           development team personnel may have violated application of a DAPS
           PWS-MEO firewall.
                                           *
           MEO Certifying Official.            .




           On July 13 and September 4, 2001, the official, now the DAPS Director, signed
           the cost comparison form certifying that the proposed in-house organization was
           the most efficient and cost-effective organization and that it was capable of
           performing the PWS, and that the organization could be fully implemented. We
           believe DoD-level guidance is needed to adequately describe the roles and
           responsibilities of personnel in the PWS and MEO development groups and
           limitations regarding membership and exchange of information between the
           groups.

           DAPS Request for Information. On March 14, 2001, DAPS issued a request for
           information to locate potential sources of solutions for document and records
           management including means to convert from paper to electronic document
           management. DAPS stated that it sought the information for planning purposes
           and that contractors interested in responding were encouraged to submit
           descriptive literature detailing their document and records management product
           lines and submit pricing. DAPS stated its intention was to conduct a May 9,
           2001, meeting with the interested parties to discuss the proposed work effort. The
           DAPS Director/MEO certifying official stated that while aware of the request for
           information, he did not approve it before issuance by the DAPS contracting
           office.

           DLA headquarters, DRMS contracting counsel, and the DRMS A-76 contracting
           officer considered issuance of the DAPS request for information to be
           incompatible with the ongoing DAPS competitive sourcing study. The DRMS
           counsel and the DRMS A-76 contracting officer noted that the request for
           information appeared to put the MEO certifying official in a potential conflict of

*
    Government commercial privileged or personal privacy information omitted.

                                                     20
           interest situation as it made the DAPS MEO appear to be looking for ways to
           enhance its own OMB Circular A-76 proposal position by getting ideas from
           industry through the request for information. On March 15, 2001, DAPS
           withdrew the request for information and cancelled the planned meeting at the
           direction of the SSAC Chair.
                                                                                *
           Alleged PWS Development Team Conflict of Interest.                       .




*
    Government commercial privileged or personal privacy information omitted.



                                                     21
           DAPS Management Response to Potential Conflicts. The MEO certifying
           official stated the DAPS study manager invited him and other DAPS managers to
           attend the April 2000 PWS meeting to provide input to the PWS. The MEO
           certifying official noted that the meeting included confusion about study
           requirements on document conversion. The MEO certifying official stated that in
           reaction to the contracting officer e-mails, he did not participate in any further
           meetings related to the developments of requirements in the PWS. The DAPS
           study manager stated no problem existed with the MEO certifying official
           attending the meeting, as it was prior to implementation of any firewall between
           PWS and MEO development teams and that any potential PWS changes resulting
           from the meeting needed approval by the SSAC.

           In response to the potential conflicts in 2001, the DAPS study manager stated that
           he spoke with the MEO development team chief about MEO team logistics issues
           such as office relocation and accommodations for team members on travel status.
           The DAPS study manager also stated that the contracting officer representative
           did communicate with MEO development team members but stopped when told
           to do so by the contracting officer.

           DLA counsel stated they received several e-mails from the contracting officer
           regarding the alleged MEO certifying official conflict of interest and the alleged
           PWS team violations of the DAPS firewall, but did not look into the allegations.
           The initial SSAC Chair stated in response to the July 2, 2001, contracting officer
           e-mail that the chair would speak with the DAPS study manager. The DAPS
           study manager did not recall the conversation. The replacement SSAC Chair
           stated the chair was unaware of the July 2, 2001, contracting officer e-mail. * .
           We believe the DLA competitive sourcing office, DLA counsel, and both of the
           SSAC chairs had no procedures in place that provided oversight and guidance to
           DAPS regarding potential conflicts of interest and firewall violations.

           SSAC Review of Conflict of Interest Issues. SSAC meeting minutes note an
           initial discussion in July 1999 of a potential DAPS firewall. On December 22,
           1999, an SSAC member expressed concern that PWS team members who would
           transition to the MEO team should not visit commercial vendors during market
           research as it would, in effect, have a competitor visiting another competitor and
           result in corporate reluctance to divulge information. The SSAC prohibited
           Booz-Allen-Hamilton personnel from visiting potential DAPS offerors. The
           SSAC agreed on August 22, 2000, that once the third PWS draft was posted on
           the website, the firewall between the MEO team and the PWS team would be put
           in place. SSAC minutes included no discussion of potential conflict of interest
           issues regarding the MEO certifying official or the DAPS study manager in e-mail
           by the contracting officer. With the exception of the request for information
           issue, neither the SSAC Chair nor DLA counsel discussed the alleged conflicts of
           interest issue with either the DAPS Director or the DAPS A-76 study manager.
           We concluded that the DAPS study manager served the SSAC in an advisory role.
           The DAPS study manager should not have been advising the SSAC, as the study
           manager apparently provided advice to the MEO.


*
    Government commercial privileged or personal privacy information omitted.

                                                     22
Management Comments on the Finding B and Audit Response
    Summaries of management comments on finding B and our audit response is in
    Appendix E.

Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Deputy Under Secretary of Defense
    (Installations and Environment) issue additional competitive sourcing
    guidance specifying procedures that ensure proper constituency and firewall
    development and implementation separating, where required, source
    selection evaluation, contracting, performance work statement development,
    and most efficient organization development teams.

    Deputy Under Secretary of Defense (Installations and Environment)
    Comments. Responding for the office of the Deputy Under Secretary of Defense
    (Installations and Environment), the Director, Competitive Sourcing and
    Privatization partially concurred stating that the revised DoD guidance of April 3,
    2000, was sufficient to preclude the use of the same consultant to develop both
    the MEO and PWS. The Director noted that DoD would ensure the issue would
    be resolved either through the revised OMB Circular A-76 or in DoD guidance to
    implement the revised circular.

    Audit Response. Although the office of the Deputy Under Secretary only
    partially concurred, the comments are responsive and no additional comments are
    required.

    B.2. We recommend that the Director, Defense Logistics Agency require the
    Defense Logistics Agency competitive sourcing office to:

           a. Develop management controls and oversight procedures that
    ensure the constituency of future agency performance work statement and
    most efficient organization development teams comply with DoD guidance.

           b. Issue guidance on Office of Management and Budget
    Circular A-76 study firewall development and implementation separating,
    where required, source selection evaluation, contracting, performance work
    statement development, and most efficient organization development. The
    guidance should adequately describe the roles and responsibilities of
    personnel in the above groups and limitations regarding membership in
    those groups, and exchange of information among the groups.

    DLA Comments. The DLA Chief Information Officer concurred with the
    recommendations. DLA stated that the DLA competitive sourcing office would
    issue guidance by June 30, 2003, on management controls and oversight
    procedures to assure constituency of future DLA PWS and MEO development



                                        23
and to comply with DOD guidance. DLA stated its commercial activities
(A-76) competition guidebook, issued in July 1999 (with subsequent revisions),
addressed the issues in Recommendation B.2.b.

Audit Response. The DLA comments on Recommendation B.2.a. are
responsive. The DLA comments on Recommendation B.2.b. are not responsive.
The DLA competition guidebook discusses OMB Circular A-76 study roles,
responsibilities, and communication between commercial activities teams and
program offices, steering committees, employees, and stakeholder audiences.
However, the guidebook does not address separation of duties for those roles or
limitations on membership in and exchange of information among groups
mentioned in Recommendation B.2.b. The guidebook also does not indicate any
post-1999 revisions. We, therefore, request additional DLA comments to the final
report regarding implementation of Recommendation B.2.b.




                                   24
                    C. Implementation of a Most
                       Efficient Organization
                    DAPS modified the previously certified MEO structure prior to
                    implementation. DAPS did not prepare revised management plans or cost
                    estimates that would support the modifications. The condition occurred
                    because guidance regarding MEO implementation was inadequate. As a
                    result, the MEO management plan was not implemented as proposed and
                    DLA cannot demonstrate that actual MEO costs will fall within the in-
                    house cost estimate.

DAPS Modifications to Certified MEO
           MEO staffing and location increases made during the transition period put into
           question whether the MEO would be able to perform the DAPS function within
           the proposed in-house cost estimate.

           MEO Implementation Requirements. DoD Instruction 4100.33,
           section 5.3.3.6., provides that:
                        Implementation of the MEO shall be initiated no later than 1 month
                        after cancellation of the solicitation and completed within 6 months.
                        DoD Components shall take action, within 1 month, to schedule and
                        conduct a subsequent cost comparison when the MEO is not initiated
                        and completed as prescribed above. Subsequent cost comparisons may
                        be delayed by the DoD Component’s central point of contact office,
                        when situations outside the control of the DoD Component prevent
                        timely or full implementation of the MEO. This authority may not be
                        redelegated.

           DAPS MEO Implementation. DAPS was in technical violation of DoD
           Instruction 4100.33 MEO implementation time requirements. The DAPS
           solicitation was cancelled on September 7, 2001. DLA announced on January 18,
           2002, that it planned to implement the MEO because no contractors had submitted
           proposals on the solicitation. The implementation announcement occurred more
           than 4 months after solicitation cancellation due in part to the time the contracting
           officer needed for examining the solicitation in accordance with DoD
           Instruction 4100.33 requirements to ascertain why no responses were received,
           and in part for a source selection authority-directed SSAC technical review of the
           MEO offer. The MEO management plan included a 270-day transition phase for
           the eventual service provider, while the solicitation provided for a 270-day to a
           360-day service provider transition period. The 270-day transition phase did not
           appear to be in compliance with the DoD Instruction 4100.33 implementation
           time requirements. The MEO proposed * personnel at 120 facilities located in

*
    Government commercial privileged or personal privacy information omitted.



                                                     25
           9 DAPS regions and at the DAPS headquarters to be implemented by October
           2002 as shown in Table 1. The MEO cost was estimated at $ * over 7 years.



                               Table 1. Certified and Revised MEO
                                  Full-Time Equivalent Positions
                                                    MEO Positions               Revised MEO
                       DAPS Region         Certified MEO Revised MEO             Gain (Loss)
                    Bangor                           *            *                  3.00
                    DAPS Headquarters                *            *                 (0.04)
                    Great Lakes                      *            *                 (6.00)
                    Jacksonville                     *            *                  1.00
                    Norfolk                          *            *                  8.00
                    Oklahoma City                    *            *                  1.00
                    Pensacola                        *            *                 (3.00)
                    Philadelphia                     *            *                (12.00)
                    San Diego                        *            *                  4.00
                    Washington                       *            *                 22.04
                      Position Totals                *            *                 18.00
                    *Government commerical privileged or personal privacy information
                    omitted.


           DAPS Changes to MEO Structure. DAPS modified the MEO structure during
           the MEO transition period without sufficient documentation. As of July 30, 2002,
           DAPS increased total MEO-designated strength by 18 full-time equivalent
           positions to a total of * personnel as DAPS modifications included closing 12
           production locations listed in the announced MEO and retaining 18 production
           locations to be closed in the MEO structure, as shown in Table 2.




*
    Government commercial privileged or personal privacy information omitted.

                                                     26
                  Table 2. Location Modifications in the
                              Revised MEO Plan*
                                             Revised MEO
                                         Locations Locations           Net Location
                DAPS Region               Retained Deleted             Gain (Loss)
             Bangor                          1         1                     -
             Great Lakes                     0         2                    (2)
             Jacksonville                    3         1                     2
             Norfolk                         2         0                     2
             Oklahoma City                   1         0                     1
             Pensacola                       2         1                     1
             Philadelphia                    2         0                     2
             San Diego                       3         6                    (3)
             Washington                      4         1                     3
               Total Locations              18        12                     6

             * The table omitted three locations transferred between DAPS Regional
             Offices in the revised MEO structure.




DAPS also made changes to MEO production personnel grades and MEO
equipment allocations. The DAPS A-76 study manager stated that the changes
were limited to reallocation of resources based on shifting workload requirements
not anticipated in the MEO. The manager stated that the DAPS policy was to
retain the locations slated for closure in the MEO if the facility customer could
document an expected annual production of at least 650,000 units and agree to
reimburse DAPS for the operating costs.

DAPS Consultations Regarding Changes. On March 4, 2002, the Vice
Director, DLA established a facilitating integrated process team to work with
DAPS through the scheduled implementation. The team consisted of DLA
headquarters personnel as well as the DAPS Director and the DAPS Director,
Business Management (formerly the DAPS A-76 study manager), and DAPS
legal counsel. The DLA Executive Director for Defense E-Business, who
previously served as the SSAC Chair, chaired the team. On March 29, 2002, the
DAPS Director, Business Management separately briefed the team chair that
DAPS would add seven more domestic U.S. locations to the MEO structure and
remove one. DAPS also noted that it was changing the location of the MEO
customer information center from Fort Eustis, Virginia, to St. Louis, Missouri.
DAPS stated that total MEO full-time equivalent personnel would not be
increased and that no additional costs would be incurred. DAPS did not prepare a
revised management plan or cost estimate to support either the MEO
modifications disclosed to the team chair or further modifications made during the
transition period.




                                             27
           DAPS officials stated that the DAPS Director approved the changes and that the
           IRO was notified of the changes.11 DLA competitive sourcing personnel stated
           DAPS had disclosed in periodic facilitating integrated process team meetings that
           the MEO was being revised but the details of the revisions were not discussed.
           Making changes to the MEO during its implementation, while not strictly
           prohibited, should be justified. Without a revised cost estimate with
           documentation to support the adjustments, DAPS cannot meet the requirements of
           the post-MEO performance review.

           Washington, D.C. Area MEO Revisions. The announced MEO for the
           Washington, D.C. area included a general schedule grade * area office manager
           and a general schedule grade * MEO production manager, and associated staffs,
           and would be located at the DAPS National Institute of Health facility in
           Bethesda, Maryland.12 DAPS officials stated that the area office manager, the
           production manager, and associated staffs would be relocated to the DAPS Fern
           Street Office in Arlington, Virginia and the DAPS Quantico, Virginia, production
           facility, respectively. DAPS officials stated that the production manager position
           was moved so that the manager could remain at his present duty station at
           Quantico. DAPS officials also stated that the Fern Street facility would be used in
           place of Bethesda, because the Fern Street facility offered a more centralized
           location for management of DAPS Washington, D.C. area facilities. The
           announced MEO did not include the Fern Street facility. DAPS did not estimate
           the cost impact to the certified MEO for moving the workforce to the Fern Street
           facility.

           DAPS Alterations to MEO Position Descriptions. During the transition period,
           DAPS personnel altered MEO position descriptions previously approved by the
           DLA headquarters human resources office and included in the certified MEO
           management plan. DAPS personnel provided the altered position descriptions to
           the human resources office located at the Defense Distribution Center in New
           Cumberland, Pennsylvania. The Defense Distribution Center human resources
           office was charged with implementing the MEO and was supporting the DAPS
           reduction-in-force process to fill the MEO and the DAPS residual organization.
           The position descriptions were altered to show the positions as being applicable to
           “multiple locations” rather than specific locations previously approved by the
           DLA headquarters human resources office. DAPS personnel stated that the
           Defense Distribution Center human resources office was aware of and accepted
           the altered position descriptions, a claim denied by Defense Distribution Center

11
    The IRO did not review the MEO revisions. DAPS officials noted that the IRO recommended DAPS
    document the changes for a future post-MEO implementation review to be conducted by the IRO but did
    not recommend the drafting of an MEO revision document. The IRO stated that he informally
    recommended the application of MEO revision documents and that all workload and business changes be
    documented in a revised PWS.
*
    Government commercial privileged or personal privacy information omitted.
12
     The area office manager position included MEO and non-MEO duties. The area office supporting staff
    included approximately 20 full-time equivalents primarily devoted to non-MEO duties and not included in
    the MEO structure. The MEO production manager group included the manager, an office assistant, and a
    purchasing agent all fully devoted to the MEO.

                                                     28
           human resources office personnel. In addition, Defense Distribution Center
           human resources office personnel were not informed by DAPS or the DLA
           headquarters human resources office that * general schedule grade * production
           manager positions located nationwide would require position description
           redeterminations 6 months after implementation of the MEO.

           Requirements Regarding Post-Implementation Review of MEO Changes.
           Part I, chapter 3, paragraph L.2. of the OMB Circular A-76 Revised Supplemental
           Handbook requires a formal review and inspection of the MEO to determine if it
           has been implemented in accordance with the transition plan, is capable of
           performing and meeting performance requirements, and that actual costs are
           within the amounts in the cost comparison. The guidance is also reiterated in
           Attachment 7 to the DoD interim guidance. In accordance with OMB
           Circular A-76 Revised Supplemental Handbook, part I, chapter 3, paragraph L.1.,
           the formal review is usually conducted after a full year of in-house performance.

           We believe that the OMB Circular A-76 Revised Supplemental Handbook
           guidance implies that those responsible for the function being studied need to
           maintain adequate documentation that supports the post-MEO review. The
           review must confirm that the MEO was implemented in accordance with the
           transition plan, that the MEO was able to perform the PWS services, and that
           actual costs are within estimates contained in the in-house cost estimate.
           Adjustments may be made for changes in work or mission, but impliedly, those
           types of adjustments need to be documented. We did not perform a formal post-
           implementation review. However, we concluded that the undocumented DAPS
           MEO changes would not provide the audit trail necessary to effectively perform
           any future post-implementation review.

Management Comments on the Finding C and Audit Response
           Summaries of management comments on finding C and our audit response is in
           Appendix E.

Recommendations, Management Comments, and Audit
  Response
           C.1. We recommend that the Deputy Under Secretary of Defense
           (Installations and Environment) develop competitive sourcing guidance that
           specifies documentation and approval requirements for revisions to
           Government most efficient organization structures made during the
           transition period after most efficient organization selection but before
           implementation.

           Deputy Under Secretary of Defense (Installations and Environment)
           Comments. Responding for the office of the Deputy Under Secretary of Defense

*
    Government commercial privileged or personal privacy information omitted.



                                                     29
(Installations and Environment), the Director, Competitive Sourcing and
Privatization concurred stating that policy is lacking with regard to implementing
and revising MEOs. The Director noted that the proposed revised OMB
Circular A-76 sufficiently addresses the concerns and makes the process more
FAR like and establishes binding performance agreements for MEOs.

Audit Response. While the Deputy Under Secretary comments are responsive to
the intent of the recommendation, if the revised OMB circular does not
sufficiently address the issue then additional DoD guidance to implement the
revised circular will be required.

C.2. We recommend that the Director, Defense Logistics Agency require the
Defense Logistics Agency competitive sourcing office to develop oversight
procedures that ensure the revisions to the certified most efficient
organization management plan are properly justified, costed, and approved
in accordance with DoD guidance and allow a sufficient audit trail for future
post-implementation review.

DLA Comments. The DLA Chief Information Officer concurred with the
recommendation and stated that it has established an appropriate procedure for
revision of the DAPS certified MEO. The DLA also stated that its IRO, in
accordance with OMB and DLA procedures, will conduct a post-MEO review of
the DAPS MEO within 12 to 18 months of the October 2002 implementation of
the MEO. In addition, DLA stated it was in the process of issuing DLA-wide a
post-MEO review handbook that provides guidance on procedures for assuring
that revisions to certified MEO plans are properly justified, costed, and approved
in accordance with DoD guidance. The DLA competitive sourcing office would
incorporate approval requirements for changes to the MEO in the DLA
commercial activities competition guidebook.




                                    30
Appendix A. Scope and Methodology
   We performed the review at DLA headquarters and DLA Component
   organizations including DAPS, DRMS, and selected potential contractors to
   determine:

      •   why no offers were made to the solicitation,

      •   why offset printing was not included in the solicitation, and

      •   whether DAPS MEO implementation was consistent with study transition
          plans and DoD and DLA regulations.

   We performed this audit from February through December 2002 in accordance
   with generally accepted government auditing standards. The audit examined
   DLA documents prepared between April 1999 and August 2002 to evaluate the
   DAPS public/private competition and the issues related to the congressional
   requests. We reviewed the solicitation including the PWS, the MEO, the source
   selection process, the independent review, actions by the contracting officer and
   DAPS management, and contract offeror correspondences. We did not attempt to
   verify or evaluate MEO costing or technical proposal methodology. We also
   reviewed applicable laws and regulations that address the OMB Circular A-76
   process, interviewed DLA contracting and source selection officials responsible
   for the public/private competition, and reviewed ethics compliance for DLA and
   support service contractor personnel.

   We analyzed existing Federal, DoD, and DLA OMB Circular A-76 policy and
   guidance and assessed DLA Component organization compliance with the OMB
   Circular A-76 competitive sourcing process governing guidance with regard to the
   DAPS A-76 public/private competition. We analyzed DAPS solicitation
   SP4410-01-R-4000 and the scope of DAPS OMB Circular A-76 competition
   requirements by gathering solicitation and acquisition planning documentation at
   DLA, DAPS, and DRMS. In addition, we identified and reviewed the complaints
   of the prospective contractors and employee workforce about the process and the
   extent DLA officials, including the contracting officer and the DAPS study
   management, analyzed and reviewed issues included in such complaints. We
   evaluated the independent review of the DAPS A-76 competition to determine if
   the independent review identified the issues in the congressional requests. We
   also evaluated management controls over the OMB Circular A-76 competitive
   sourcing process at the DLA Components that performed the DAPS A-76
   competition.

   Use of Computer-Processed Data. We relied on computer-processed cost
   comparison data calculated by the win.COMPARE2 software program. The
   Air Force-developed program was released on March 13, 2001, for mandatory use
   on all FY 2001 and later OMB Circular A-76 cost comparison studies. The IG
   DoD performed a reliability assessment of win.COMPARE2 and published IG
   DoD Report No. D-2001-127, “Data Reliability Assessment Review of
   win.COMPARE2 Software,” on May 23, 2001. The report concluded that general
   and application controls over the software were adequate. The report states that
                                       31
     through software testing it was determined that computations and reports
     generated by win.COMPARE2 were sufficiently reliable, accurate, and in
     accordance with the OMB Circular A-76 Revised Supplemental Handbook and
     the DoD A-76 Costing Manual. Nothing came to our attention in this review that
     caused us to doubt the reliability of the computer-processed data.

     Limitation to Auditor Independence. The Office of the Inspector General of
     the Department of Defense is a customer of DAPS.

     General Accounting Office High-Risk Area. The General Accounting Office
     has identified several high-risk areas in the DoD. This report provides coverage
     of the Defense Infrastructure high-risk area.



Prior Coverage
     The General Accounting Office and the IG DoD issued five reports that discuss
     relevant OMB Circular A-76 policy issues or public/private competitions
     performed by DLA. There was no prior audit coverage of the DAPS
     public/private competition during the last 5 years.


General Accounting Office
     “Commercial Activities Panel: Improving the Sourcing Decisions of the
     Government – Final Report,” April 30, 2002

     GAO Report No. GAO-02-498T, “Competitive Sourcing: Challenges in
     Expanding A-76 Governmentwide,” March 6, 2002


IG DoD
     IG DoD Report No. D-2002-043, “Defense Reutilization and Marketing Service
     Public/Private Competition,” January 25, 2002

     IG DoD Report No. D-2001-127, “Data Reliability Assessment Review of
     win.COMPARE2 Software,” May 23, 2001
     IG DoD Report No. D-2001-118, “Public/Private Competition at Lackland Air
     Force Base,” May 14, 2001

     IG DoD Report No. 99-132, “Outsourcing of Defense Supply Service Center,
     Columbus, Bus and Taxi Service Operations,” April 13, 1999




                                         32
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA, DAPS, and DRMS management controls relating to
    public/private competitions. Specifically, we reviewed management controls over
    solicitation, performance, oversight, and independent review of public/private
    competitions; DAPS management controls over performance of public/private
    competitions and transition/implementation of MEOs; and DRMS management
    controls over public/private competition contract solicitations and support service
    contractor assistance. We reviewed management’s self-evaluation applicable to
    those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DLA as defined by DoD Instruction 5010.40. DLA,
    DAPS, and DRMS had not established management controls for oversight of
    competitive sourcing studies that ensure the constituency of PWS and MEO
    management plan teams met conflict of interest requirements found in DoD
    guidance regarding support service contractor employees. DLA and DAPS had
    not established management controls that would ensure that transition period
    revisions to previously certified MEO management plan documents were properly
    justified, costed, and certified. DLA and DRMS had not established management
    controls that would ensure that contracting officer and source selection authority
    actions in solicitations where no proposal received were in accordance with
    32 C.F.R. 169a, section 17. Recommendation A.1.b., if implemented, will
    improve DLA and DRMS procedures over contracting officer and source
    selection authority actions in solicitations where no proposal is received.
    Recommendation B.2., if implemented, will improve DLA, DRMS, and DAPS
    procedures for avoiding potential conflicts of interest in PWS and MEO
    development. Recommendation C.2., if implemented, will improve DLA and
    DAPS procedures for documenting and approving changes to the certified MEO
    during the transition phase. A copy of this report will be provided to the senior
    official responsible for management controls at DLA.

    Adequacy of Management’s Self-Evaluation. DLA, DRMS, and DAPS did not
    identify procedures for avoiding potential conflicts of interest in PWS and MEO
    development as an assessable unit; DLA and DRMS did not identify procedures
    for contracting officer and source selection authority actions in competitive
    sourcing solicitations where no proposal is received; and DLA and DAPS did not
    identify procedures for documenting and approving changes to the certified MEO
    during the transition phase and, therefore, did not identify or report the material
    management control weaknesses identified by this audit.




                                        33
Appendix B. Congressional Request




                     34
   Appendix C. Chronology of Document
               Automation and Production Service
               OMB Circular A-76 Competition

1999 Apr 27 DLA briefs Under Secretary of Defense for Acquisition, Technology, and Logistics on
            the results of KPMG study of DAPS functions and sourcing options for DAPS. Options
            assume that traditional offset printing would be provided to GPO.
       Apr 30 DLA provides KPMG review to Congress. KPMG review concludes that no DAPS
              functions are inherently national security. The DLA Director announces plans to subject DAPS
              functions to competitive sourcing process.
        Aug 3 DLA announces public/private OMB Circular A-76 competition. Study timeline is 24 months
              from study announcement to tentative decision.
       Sep 30 First Industry Day held; 30 attendees representing 16 public and private organizations.
              Attendees received questionnaires as part of Booz-Allen-Hamilton market research effort.
       Nov 29 DRMS contracts Booz-Allen-Hamilton to provide support services to DAPS in all phases
              of the OMB Circular A-76 competition.


2000
        Apr 3 DoD issues interim guidance that requires that the MEO team and PWS team be
              separated and bans individual private sector consultants from assisting in preparing both the
              PWS and Management Plan to avoid potential conflicts of interest.
       Apr 19 The contracting officer and the DRMS contracting counsel express concern about a potential
              conflict of interest involving the MEO certifying official (DAPS Deputy Director, later the
              DAPS Director) because the MEO certifying official was directing the preparation of the
              PWS and the MEO.
        Jun 7 First draft PWS posted to DRMS Web site. MEO study team established and expanded
              through February 2001, to include private sector consultants who developed PWS through
              third draft.
       Jun 13 Second Industry Day held; 56 attendees representing 30 public and private organizations.
       Jul 28 Second draft PWS posted to DRMS Web site.
        Sep 1 OMB concludes that draft DAPS solicitation did not meet performance-based service
              contracting requirements.
        Sep 7 MEO study team initiates work on first draft of MEO management plan.
        Oct 1 DLA revises draft solicitation to address OMB concerns. DAPS states that many
              solicitation requirements cannot be revised.



                                                            35
2001
       Jan 26 MEO study team completes first draft of MEO management plan.
       Jan 29 PWS team provides third draft PWS to contracting officer.
        Feb 9 MEO study team completes the second draft of MEO management plan.

       March DAPS study management initiates a firewall governing PWS and MEO development.
             Three DAPS employees remain on the PWS team; all other DAPS and support service
             contract employees are on the MEO study team.
        Mar 7 DAPS Director requests approval from the Office of the Deputy Under Secretary of Defense
              (Installations and Environment) to cancel the DAPS A-76 competition and to implement a
              strategic sourcing plan teaming the projected MEO with personnel of the National Industries
              for the Blind/NISH (formerly the National Industries for the Severely Handicapped). The
              Office of the Deputy Under Secretary recommends continuation of the DAPS A-76 competition.
        Mar 8 Source selection authority (DLA Vice Director) approves the source selection plan.
              The acquisition plan calls for a single procurement for DAPS functions.
       Mar 30 DRMS issues the solicitation that includes the finalized PWS.
       May 21 IKON notifies the contracting officer that it would not submit an offer.
         Jul 2 The contracting officer warns DAPS PWS team personnel, including the DAPS study
               manager, and informs SSAC Chair of potential conflict of interest in PWS team discussions
               with MEO team members regarding PWS or MEO proposal specifics.
   Jul 13-16 The MEO study team completes the third and final draft of MEO management plan and MEO is
             certified by the DAPS Director.
       Aug 30 The DAPS Director signs a memorandum to the contracting officer stating individual DAPS
              location staffing information should not be released to offerers.
       Aug 31 RR Donnelley notifies the contracting officer that it would not submit an offer. RR Donnelley
              lists multiple areas of concern.
         Sep 4 The IRO (DLA Chief of Internal Review) certifies the MEO management plan. The sealed
               MEO management plan is submitted to the contracting officer.
         Sep 7 The contracting officer issues an amendment to close the solicitation after no offers are
               received. The amendment requests prospective contractors to state reasons for not submitting
               offer.
       Sep 17 IKON representatives inform the contracting officer that the solicitation is too cumbersome
              and unreasonable.




                                                      36
2001
       Sep 19 The contracting officer meets with the RR Donnelley team to discuss issues raised in the
              August 31, 2001, letter.
        Oct 1 RR Donnelley sends second letter to contracting officer, listing three remaining key areas of
              concern.
       Oct 15 The contracting officer briefs SSAC on viability of reissuing solicitation. The contracting
              officer concludes that the solicitation is unduly restrictive and recommends reissue.
       Oct 29 The DLA general counsel requests the contracting officer to reconsider recommendation to
              reissue solicitation.
        Nov 5 The contracting officer meets again with the SSAC and recommends that DLA not resolicit.
              The contracting officer doubts that corrected solicitation will produce any private sector offer.
       Nov 14 The source selection authority asks the SSAC to evaluate the MEO for compliance with
              solicitation and cost-effectiveness.
       Nov 28 The source selection authority meets with RR Donnelley team to inform them that the
              solicitation would not be re-issued.
  Dec 12-13 SSAC meets to perform separate technical review of MEO offer at source selection authority
            direction.


2002
        Jan 3 The contracting officer informs SSAC chair that the DAPS study manager remains in a
              potential conflict of interest.
       Jan 11 SSAC recommends that the Government-proposed MEO be implemented. The source
              selection authority approves the SSAC recommendation to implement the proposed MEO.
       Jan 18 DLA notifies Congress and announces that the MEO would be implemented. MEO proposed
              strength of * personnel at 119 facilities to be implemented by October 2002 with an
              estimated cost of $ * million over 7 years. House Armed Services Committee
              staff subsequently requests and receives briefing of DAPS study results.
       Jan 31 Representative Joel Hefley, Chairman of House Military Readiness Subcommittee, requests
              that the IG DoD determine the reasons for the nonresponsiveness of the private sector and
              the decision not to include offset printing in the solicitation.
  February      DAPS management briefs employees on MEO of * personnel and planned residual
                organization of 405 personnel to replace current DAPS domestic work force of 1,368 personnel.
       Apr 22 Senator George Allen requests the IG DoD to examine issues raised by a DAPS employee
              regarding the OMB Circular A-76 study.
       Jul 15 DAPS issues reduction-in-force letters in combined reduction of DAPS residual organization
              with MEO. MEO includes undocumented and unapproved changes made during transition
              phase.
                *Government commercial privileged or personal privacy information omitted.


                                                         37
Appendix D. Concerns and Audit Results
    Issues Reviewed. We examined the 11 concerns noted in RR Donnelley and
    IKON responses to the September 7, 2001, solicitation closing. We also reviewed
    four MEO implementation concerns Senator Allen forwarded. We analyzed
    solicitation documentation and MEO proposal documentation. We also reviewed
    the SSAC and contracting office documentation related to the issues. We did not
    attempt to verify or evaluate the MEO costing or technical proposal methodology.

Industry Concerns
    DAPS Workload Information. RR Donnelley and IKON claimed that the lack
    of adequate data regarding the work to be performed, by whom, where, and using
    what equipment, made it all but impossible to offer a response that would ensure
    that an offeror would not suffer undue financial risks. RR Donnelley stated that
    most workload data were provided in the aggregate, and that there was no way to
    determine if a job calling for 10,000 impressions was actually a 1-page document
    duplicated 10,000 times, one 10-page document duplicated 1,000 times, or one
    100-page document duplicated 100 times, and stated that such jobs may have
    been double-sided, collated, stapled, and/or bound. Offerors requested
    information on DAPS customers, including work quantities, servicing DAPS
    plants and subplants, and associated revenue in the Defense Working Capital
    Accounting System database. RR Donnelley believed that MEO access to the
    accounting system information and knowledge of DAPS revenue processes gave a
    proposal advantage to the MEO.

    Audit Results. The concern was substantiated. DAPS objected to the release of
    accounting system workload and pricing information that it claimed to be
    proprietary. However, after solicitation closure, the contracting officer did not
    support the DAPS position and concluded that private sector offerors should have
    been allowed to obtain more up-to-date and detailed volume workload
    information to estimate costs. The contracting officer agreed after solicitation
    closure that data regarding workload volume were not in a format that allowed
    firms to prepare a pricing proposal and DLA needed to rebaseline the workload
    information to more recent historical data. The solicitation used 1998 and 1999
    workload data for the historical baseline. The MEO management plan states that
    the MEO development team used DAPS Defense Working Capital Fund data in
    conjunction with PWS technical exhibit and other MEO data to evaluate current
    DAPS operations. The contracting officer concluded that in the event of a
    resolicitation the DAPS accounting system could provide to all offerors workload
    volume information by job order number. We believe that the Government is not
    required to eliminate all risks or provide all the information a contractor desires,
    but rather ensure that adequate information is provided in the PWS to allow
    offerors to compete intelligently (in order to anticipate costs), and on equal terms.
    We agree with the contracting officer’s conclusion that additional information
    could have been provided.


                                         38
DAPS Staffing Information. The solicitation noted only that DAPS in-scope
operations were presently performed at 260 sites with 1,400 personnel. DAPS did
not provide detailed staffing information to potential offerors that would have
provided insight into both the nature and scope of the work to be performed.

Audit Results. The concern was substantiated. Potential offerors sought existing
staffing information such as number of personnel at a given site, type of work
performed, skills possessed, and pay grade or classification. DAPS management
determined that the information was proprietary to the MEO. An August 30,
2001, DAPS Director memorandum to the contracting officer concluded that no
personnel information relative to individual DAPS locations should be released.
The memorandum noted a May 1984 U.S. District Court for the District of
Columbia case as justification supporting the Government’s right to deny contract
offerors such information. The DRMS contracting officer deferred to the DAPS
management decision. The contracting officer later concluded that staffing
information is not subject to Freedom of Information Act protection and believed
that the 1984 case was not a valid basis for denying information to the public
regarding staffing because the information that offerors were seeking was not as
detailed as the information denied release in the 1984 case. The DLA general
counsel supported the DAPS determination, noting the contracting officer’s
conclusion had no legal basis. After solicitation cancellation, the contracting
officer reviewed other DoD OMB Circular A-76 cost competition studies and
noted that detailed staffing information on the present Government organization
was included in the DLA OMB Circular A-76 solicitation of DRMS functions and
in Defense Finance and Accounting Service A-76 solicitations. The contracting
officer concluded that if a resolicitation were initiated, private sector offerors
should be allowed to obtain staffing information in order to allow contract
offerors to understand the nature and scope of work. Potential offerors requesting
staffing information may not have necessarily needed the staffing information to
make a proposal, but were seeking an alternative means to understand the volume
of work that needed to be produced under the contract because of the
Government’s inability to provide detailed workload information. Subsequently,
DAPS could have provided additional staffing information.

During the course of the study, approximately 40 of the 260 initial DAPS
locations were closed. In-place personnel subject to the study were reduced from
1,400 at study announcement to approximately 918 at study end through
voluntary early retirement and voluntary incentive separation offers. The
solicitation was unclear about the total number of locations, the closure of
locations, and included no personnel information. The contracting officer stated
that she was not aware that the number of DAPS locations had significantly
decreased and that personnel reductions were not communicated to her. The
contracting officer also stated that she knew only that DAPS was implementing a
downsizing policy. The DAPS A-76 study manager stated that the downsizing
did not change the scope of the solicitation requirement. The August 30, 2001,
DAPS Director memorandum to the contracting officer states that DAPS was in
the process of downsizing its organization to reflect current business levels, which
could lead to similar staffing levels projected in the MEO. The DAPS Director
was aware of the MEO staffing levels, as he was the MEO certifying official.


                                    39
            DAPS management did not inform the IRO of the scope or number of personnel
            reductions. We concluded that potential offerors should have been advised of the
            closed sites and the reduction of overall DAPS staffing.

            Service Contract Act Application. RR Donnelley expressed concern that the
            Service Contract Act would substantially decrease profit margins because of the
            cost of salaries and benefits. RR Donnelley was forced to remove a major
            subcontractor from its teaming arrangement because that subcontractor did not
            want to be subject to the Service Contract Act. RR Donnelley claimed the
            problem was magnified because contractors would be in competition with other
            duplication businesses because Defense customers are not forced to purchase
            from DAPS. Contractors also argued that the Service Contract Act should not
            apply to them because they provide “commercial supply end products” not subject
            to the Service Contract Act.

            Audit Results. The concern was partially substantiated. The Service Contract
            Act was clearly a deterrent for RR Donnelley in submitting a proposal. However,
            the contracting officer concluded DAPS work is in the nature of a service and
            therefore subject to the Service Contract Act. Neither DRMS counsel nor the
            contracting officer supported preparing a justification for a waiver to Service
            Contract Act provisions. On October 1, 2001, the DRMS counsel provided the
            contracting officer a legal review stating that the Service Contract Act was
            applicable to the DAPS A-76 solicitation. We found no support that disputed the
            contracting officer’s decision not to request a waiver. The contracting officer
            believed that even if all other solicitation issues were resolved or corrected, RR
            Donnelley would not submit an offer because of the Service Contract Act issue.

            Government Printing Office Work (Offset Printing). RR Donnelley contended
            that they should be given firm guidelines on which printing work should be
            submitted to GPO, have an opportunity to do some work performed by GPO, and
            be directly reimbursed for processing incoming work sent to GPO.

            Audit Results. The concern was partially substantiated. According to a DAPS
            management decision and a verbal DLA legal opinion provided to the SSAC, the
            solicitation did not include $106 million of yearly offset printing primarily
            performed by GPO, which represented about 30 percent of the DAPS business
            base.1 The primary driver of the decision was that the GPO work was privately
            performed by GPO contractors and that DAPS did not have the in-house base to
            perform the work if the MEO won the competition. DLA and DAPS contend they
            could not legally include the GPO work, and any inclusion of such work would
            have to be submitted to GPO for approval, perhaps as a separate solicitation.
            However, a 1996 Department of Justice opinion states that Federal agencies are
            not obligated to continue mandatory use of GPO, because GPO is not a part of the
            Executive branch of the Government. The FAR has not been modified to reflect
            the Department of Justice position. According to RR Donnelley, they did not
            have enough information regarding the process of distributing incoming printing
            work to estimate their costs and resources. The contracting officer was concerned

1
    DAPS at its own discretion maintains approximately $3.18 million (3 percent of total) offset printing work
    in-house. The in-house offset printing was not included in the OMB Circular A-76 competition.

                                                       40
           that DAPS retained responsibility to determine and write GPO work job
           specifications. If the solicitation were reissued, the contracting officer believed
           that tasks for writing offset printing specifications and forwarding the appropriate
           work to GPO should be part of the solicitation.

           Contractual Minimum Guaranteed Amount. Contractors were concerned that
           the solicitation, which guaranteed only 10 percent of the estimated dollar amount
           per contract period, was disproportionate to the contractor’s degree of risk, as it
           would be too low to guarantee the contractor the recovery of the high initial
           startup costs.

           Audit Results. The concern was substantiated. This issue gets to the key aspect
           that the DAPS business base was rapidly changing, and potentially decreasing, as
           a result of shifts in technology. The printing and photo reproduction industries
           are undergoing technological changes that are causing workforce requirement and
           workload unpredictability. The DAPS A-76 study manager stated that the low
           minimum was a direct result of changing technologies for printing services. The
           DAPS director agreed that the competition was undertaken in a technologically
           fluid environment and that neither the PWS, the DAPS MEO, nor the DAPS
           residual organization could establish a stable historical baseline to estimate
           potential future printing requirements. Because of high startup costs that included
           replacing leased equipment and setup of an automated financial system, the
           contracting officer recommended including a guarantee of more than 10 percent if
           the solicitation were reissued. The contract was a hybrid indefinite-quantity
           contract with the minimum and maximum amount for each period. The
           solicitation maximum was 150 percent.

           Information on Leased Equipment. IKON expressed concern that
           nondisclosure of existing leased equipment would make it difficult to make a
           competitive offer. IKON claimed it was initially informed that leased equipment
           would be provided as Government-furnished equipment. The RR Donnelley team
           knew the equipment would not be offered to private firms. RR Donnelley’s
           concern was that the Government was asking it to replace the leased equipment,
           but would not share information regarding what leased equipment was currently
           in place.

           Audit Results. The concern was substantiated. The Government leased from
           private suppliers * percent of the value of the existing equipment used at DAPS
           locations. Total lease value of the equipment was approximately $ * . On June 8,
           2000, the source selection authority approved an SSAC recommendation making
           leased equipment available to both potential commercial offerors and the
           Government MEO, requiring the eventual service provider to provide for
           equipment maintenance. DAPS was instructed to verify all of the equipment
           information for inclusion as a technical exhibit in the second draft posting of the
           PWS. On November 15, 2000, the SSAC agreed with a DAPS recommendation
           not to offer the leased equipment to private firms and to cost the leases for the
           MEO offer. The March 30, 2001, solicitation was silent on the issue.


*
    Government commercial privileged or personal privacy information omitted.

                                                     41
           DoD Instruction 4100.33, section 5.3.2.3., provides that decisions to offer or not
           offer Government property shall be determined based upon a cost-benefit analysis
           that justifies the decision. The determination must be supported by current,
           accurate, and complete information, and be readily available for the independent
           review. The design of the analysis shall not give a decided advantage to either the
           in-house or contractor proposals. On January 10, 2001, DAPS provided the
           contracting officer a cost-benefit analysis that estimated DAPS FY 2000 leased
           equipment costs at $ * and concluded that the Government offering the leased
           equipment would not provide offerors an incentive to reduce equipment usage.
           DAPS management believed offerors should propose equipment utilized through
           only new lease agreements. In such a scenario, DAPS estimated that the MEO
           would reduce existing equipment between 25 and 50 percent, or $ * to $ * per
           year, and that contract offers would save 30 percent, or $ * per year. However, the
           analysis provided no documentation or methodology that supported the estimates
           and no alternatives that allowed offers on portions of the present leased
           equipment. The contracting officer recommended after solicitation closure that
           the leased equipment be provided as Government-furnished to all offerors at no
           cost. Not offering leased equipment to private firms made the solicitation unduly
           restrictive.

           Solicitation Reasonableness. IKON complained that the solicitation was
           cumbersome and had too many requirements that made it difficult to sort out and
           required a tremendous amount of analysis before even beginning to prepare a
           proposal. For example, the solicitation called for a four-volume proposal,
           including six detailed plans, which contractors claimed would take an extensive
           amount of time and money to prepare.

           Audit Results. The concern was partially substantiated. The DRMS contracting
           officer concluded after solicitation closure that the information needed to be
           represented in a more organized, beneficial, and complete manner. The
           solicitation consisted of seven 3-inch-thick volumes. While the Government is
           entitled to obtain the information it needs to assess the contractor’s ability to
           perform, approach, price reasonableness, and past performance, deleting some
           proposal requirements (volumes and plans) could make the solicitation less
           cumbersome.

           Small Business Goals. IKON expressed concern that socioeconomic goals stated
           in the solicitation were not clearly defined and unreasonable.

           Audit Results. The concern was partially substantiated. The solicitation
           followed normal DLA procedures to require a small business subcontracting plan,
           a plan for subcontracting with the Javits-Wagner-O’Day Act entities such as
           National Industries for the Blind/NISH (formerly National Industries for the
           Severely Handicapped) (NIB/NISH), a plan for subcontracting with small
           disadvantaged businesses, and an optional DLA mentoring business agreement.
           The solicitation stated that the goal for subcontracting for small business was
           15 percent, categorized into small disadvantaged businesses, small woman-owned
           businesses, Javits-Wagner-O’Day Act entities, and “Historically Underutilized

*
    Government commercial privileged or personal privacy information omitted.

                                                     42
           Business Zone” small businesses. IKON mistakenly believed that the solicitation
           called for 15 percent for small business and another 15 percent for the other
           categories. The contracting officer explained to IKON that the 15 percent
           represented all small business subcategories and that the percentage was a goal
           only, and that firms could submit proposals with other percentages if the goals
           could not be realistically met. IKON responded that it considered the minority
           obligations confusing and hampered its proposal. We concluded that while the
           solicitation small business goals were not clearly presented, they were reasonable.

           NIB/NISH expressed interest in July 2000 to perform elements of the DAPS PWS
           requirement at seven NIB/NISH Midwestern facilities. The MEO team chief
           stated that the DLA SSAC later rejected the NIB/NISH proposal. The final MEO
           proposal did include NIB/NISH material resources.

           On March 7, 2001, the DAPS Director requested that staff of the Office of the
           Deputy Under Secretary of Defense (Installations and Environment) cancel the
           DAPS A-76 process and implement a strategic sourcing initiative with a teaming
           of the projected MEO with personnel of NIB/NISH, Xerox Corporation, and other
           suppliers.2 The DAPS Director noted that the prime driver of the strategic
           sourcing request was an unstable DAPS business base. The Office of the Deputy
           Under Secretary of Defense responded that the DAPS business situation might
           never be stable because of ongoing changes in the printing industry and
           recommended that DAPS continue with the OMB Circular A-76 process using the
           best possible business workload projections.

           Equipment Maintenance Costs. The RR Donnelley team stated that not
           disclosing data on maintenance costs for Government-furnished equipment made
           the solicitation restrictive. Solicitation technical exhibit 23 included a list of
           Government-furnished equipment by facility including make/model number,
           serial number, and acquisition cost and date. The solicitation did not provide
           maintenance records and did not specifically require preventive and corrective
           equipment maintenance or an equipment replacement plan.

           Audit Results. The concern was partially substantiated. The contracting officer
           initially determined it would not be necessary to provide maintenance costs to
           contract offerors. While the MEO had the use of the historical maintenance costs
           and the contract offerors did not, the information provided in the solicitation
           would appear to allow a qualified contractor to adequately estimate equipment
           maintenance costs for the Government-furnished equipment. However, RR
           Donnelley claimed it was hesitant to seek maintenance quotes from Xerox, as
           Xerox was partnering with the MEO team. Even though DLA was not legally
           required to disclose equipment maintenance costs, the contracting officer agreed
           with RR Donnelley and determined after solicitation closing that it was feasible to
           provide historical maintenance costs in a technical exhibit, and contractors were
           to be responsible for maintenance of Government-owned equipment.



2
    NIB/NISH would receive roughly 200 personnel positions in the strategic sourcing arrangement. No
    NIB/NISH personnel were included in the final certified MEO.

                                                     43
Non-Mandated Facilities and Facility Cost in Cost Comparison. The
solicitation did not include a charge for DAPS facilities but did require the offeror
to identify non-mandated DAPS facilities included in the contractor proposal.
The solicitation stated that the cost to DAPS for the non-mandated DAPS
facilities used by the offeror and the MEO would be included in the cost
comparison as an addition to contractor cost. Solicitation technical exhibit 32
listed Government-furnished facility costs, while solicitation amendment 14,
August 28, 2001, included the non-mandated facility costs as a contract line item
with the proviso that the line item would be removed if a contract was
implemented. The total annual cost of the facilities listed in technical exhibit 32
was $5.4 million. Contractors stated that the Government providing facilities at
no direct cost to either party would favor the MEO while the MEO believed
including facility costs in the cost comparison would favor contractors.
Contractors wanted a pro rata cost of facilities they intended to use charged to the
cost comparison to account for cases where the contractor would use only a
portion of a facility.

Audit Results. The concern was partially substantiated. The SSAC discussed
whether to charge for the use of facilities. The SSAC believed the approach made
better business sense because it would encourage all parties to maintain only
facilities deemed necessary. DLA counsel suggested charging for the facilities
only in the cost comparison. The IRO stated in subsequent teleconferences with
the SSAC Chair, the contracting officer, and the DAPS study manager, that it was
inappropriate to include facility costs in the MEO cost estimate because contract
offerors would not be charged. The SSAC decided to keep the costs in the cost
comparison. The contracting officer recommended the solicitation and cost
comparison method remain unchanged.

Contractor Site Visits to DAPS Locations. RR Donnelley stated that contractor
site visits of three DAPS facilities were held during off-peak hours, so contractors
could not judge staffing and workload requirements. Because sites were devoid
of staff and customers, contractors could not gauge the amount of walk-in
customers a DAPS facility might service.

Audit Results. The concern was substantiated. The contracting officer stated
that if the solicitation was reissued, additional site visits should be conducted, but
not during peak hours. Reasons for holding site visits at non-peak hours included
document sensitivity and morale of DAPS employees. The contracting officer
also stated that site visits during peak hours would not guarantee the ability to
judge walk-in customer workload. We believe site visits should be included in
the competitive sourcing process. While the morale of those Government
employees subject to the cost comparison study should be respected and any
sensitive documents be secured, if all potential contractors want to observe
customer walk-ins and general workload information, additional normal workday
site visits should be scheduled to accommodate the requests.




                                      44
Employee Concerns
    MEO Transition Personnel Actions. DAPS employees were not informed as to
    who were actually losing their jobs while being given deadlines for applying for
    voluntary early retirement and voluntary incentive separation offers. In addition,
    not all DAPS employees were given the opportunity to register for priority
    placement and must wait until a reduction-in-force notice is received.

    Audit Results. The concern was not substantiated. The MEO transition phase
    voluntary early retirement, voluntary incentive separation, reduction-in-force, and
    priority placement procedures were being implemented as called for in the MEO
    transition plan and DLA personnel procedures.
    MEO Structure and Job Descriptions. The MEO was being modified during
    the transition phase and would not be able to provide adequate services to DoD
    Military Components. The MEO structure benefited senior DAPS management
    as jobs were created for senior people that were slated to lose jobs. Job
    descriptions were not changed even though job duties changed significantly and
    jobs were rated requiring direct supervision even though the closest supervision
    was hundreds of miles away. Changes were made in the announced
    Washington, D.C. area DAPS MEO organization, including changes of location
    of supervisory personnel and staff and revision to MEO listed personnel grades.

    Audit Results. The concern was partially substantiated. We found no evidence
    that the MEO as certified and announced would not be able to provide adequate
    services to DoD Military Components or that the announced MEO structure
    benefited senior DAPS management. However, undocumented and unapproved
    MEO changes during the transition period discussed in finding C put those
    conclusions into question. Concerns regarding specific Washington, D.C. area
    revisions to the MEO were supported. While some MEO supervisory positions
    were not geographically close to remote production facilities, we concluded that
    was unavoidable in a nationwide MEO structure with 120 production locations.
    MEO Information Disclosure. DAPS employees did not have access to the
    MEO documentation after announcement of the MEO implementation. DAPS
    headquarters failed to address employee concerns on implementation of the MEO.

    Audit Results. The concern was partially substantiated. After the DLA January
    2002 announcement of the MEO implementation, the Director, DAPS issued a
    January 25, 2002, memorandum to the DAPS workforce regarding methods for
    employee review of MEO plan documents. The memorandum noted that each
    DAPS area office would maintain a single hard copy of the MEO management
    plan and associated documents at each of the 11 DAPS area office headquarter
    domestic locations for review by the DAPS workforce. The workforce was not
    permitted to copy the documents. DAPS officials agreed that the procedure
    limited access to the MEO documentation for many DAPS employees who did
    not work in geographical proximity to an area office location. DAPS officials
    stated that they did not mass-reproduce or electronically transmit the MEO
    documents to DAPS personnel because of concern that wide distribution of the
    MEO contents would have a negative effect over MEO competitiveness should a
                                        45
future resolicitation be required. We found no DoD or DLA requirement over the
distribution of MEO documentation after announcement of the final study
decision and commencement of the MEO transition period.

Travel Costs. DAPS employees also felt senior management wasted resources
by spending money on useless travel and conferences while the organization
lacked funds for basic operations.

Audit Results. The concern was not substantiated. DAPS policy requires
managers to attend annual document automation technology conferences. We
found no indication DAPS senior management wasted resources on travel and
conferences.




                                  46
Appendix E. Management Comments on the
            Findings and Audit Response

Management Comments on Finding A and Audit Response
            DLA Comments on DAPS Workload Information. DLA disagreed with
            finding and discussion statements that DLA withheld specific workload
            information from prospective contract offerors and that data regarding workload
            volume were not in a format that allowed firms to prepare a pricing proposal.
            DLA asserted that it was as open and as forthcoming as possible in providing the
            information necessary for the development of competitive private sector
            proposals. DLA stated that solicitation technical exhibits 5, 6, 7, and 20 provided
            workload detail by specific location, and that solicitation technical exhibits 8, 9,
            10, and 13 and solicitation Attachment 9 provide workload information DAPS-
            wide. DLA stated that DAPS-wide workload information was estimated and not
            historically tracked by individual DAPS location; and not available in any
            database or system. DLA stated that the combined use of the technical exhibits
            and attachments provided a true composite of DAPS workload sufficient to
            provide an accurate estimate for costing purposes. DLA stated that the MEO, as
            certified by the IRO, was able to develop a bona fide bid using only the
            information contained in the solicitation PWS, its attachments, and technical
            exhibits.

            Audit Response. Of the technical exhibits noted in the DLA response, only
            solicitation technical exhibit 6 provided historical and projected workload for
            each DAPS location, including historical workload for FY 1998 through FY 2000
            and subsequent 5-year projections.1 Data in solicitation technical exhibit 6 did
            not provide bidders details such as information on DAPS customers, individual
            customer work quantities, servicing DAPS plants and subplants, and associated
            revenue. DAPS withheld such detailed job order data available in the DAPS
            Defense Working Capital Fund accounting system. We do not agree that the
            MEO was able to develop a bona fide bid using only the information contained in
            the solicitation PWS, its attachments, and technical exhibits. The MEO
            management plan stated that the MEO development team used existing DAPS
            Defense Working Capital Fund data in conjunction with PWS technical exhibits
            and other MEO data to evaluate current DAPS operations. We agree with the

1
    Technical exhibit 5 provided a chart of PWS work functions that were performed at each DAPS location.
    Technical exhibit 7 showed levels of classified data handled at each DAPS facility. Technical exhibits 8
    and 9 provided aggregate approximate work orders and average output units per work function or
    production process. Technical exhibit 10 contained DAPS-wide composite estimated sensitive and
    classified work by job order for FY 1999 through 2004. Technical exhibit 13 contained DAPS-wide
    composite projected re-work percentages for FY 2001 through 2005. Technical exhibit 20 contained top-
    level monthly workload data by unit for mandatory production at 50 locations. The historical period of
    the data in technical exhibit 20 was not identified. Attachment 9 provided projected DAPS-wide
    composite turnaround and timeliness requirements by work function.

                                                      47
contractor contention that MEO access to the accounting system information and
knowledge gave a proposal advantage to the MEO. We also agree with the
contracting officer conclusion that withholding the accounting system could have
been detrimental to private firms and created an unfair advantage for the MEO.

DLA Comments on DAPS Staffing Information. DLA disagreed with finding
and discussion statements that DLA withheld specific staffing information from
prospective contract offerors. DLA stated DLA/DAPS justifiably withheld
staffing information. DLA noted the DAPS Director memorandum of August 30,
2001, provided the basis for withholding the staffing information, using the
May 1984 U.S. District Court for the District of Columbia legal opinion. DLA
stated that DLA/DAPS had three reasons for not releasing staffing information.
First, releasing the then-current staffing information would provide potential harm
to the MEO competitive position. Second, as a performance-based competition,
DLA believed all bidders should have developed staffing based on workload
requirements, not on Government staffing levels currently in place. Third, DLA
did not agree with RR Donnelley claims that staffing information would provide
another means to understand work volumes, because of the lack of detailed
workload information. DLA believed that providing staffing information would
not give potential offerors information to estimate work job orders per location.
Instead, staffing information would have provided a competitor a means to
determine DAPS staffing costs.

Audit Response. We do not believe that release of aggregate DAPS staffing and
location reduction information would have unduly harmed the MEO competitive
position. As noted in the report, approximately 40 of the 260 initial DAPS
locations were closed during the course of the study, while in-place personnel
subject to the study were reduced from 1,400 at study announcement to
approximately 918 at study end through voluntary early retirement and voluntary
incentive separation offers. The solicitation was unclear about the total number of
locations, the closure of locations, and included no personnel information. DAPS
withheld from the contracting officer and the IRO the scope and number of the
personnel reductions. While solicitation technical exhibit 6 showed projected
DAPS workload line items alternately decreasing or increasing for the 5-year
period after FY 2000, the undisclosed DAPS location and staffing reductions
indicated a potentially precipitous drop in the DAPS customer and workload base.
Thus, DAPS aggregate and location staffing information would have provided
private firms another means to understand work volumes. According to the
contracting officer, at least one other DLA A-76 study of DRMS functions
provided such location-related staffing information. We agree that in
performance-based competitions all bidders should develop staffing based on
workload requirements. However, the DAPS solicitation included several
deficiencies including those noted by DLA to OMB where the performance-based
requirements could not be rectified.

DLA Comments on Guaranteed Minimum. DLA partially agreed with finding
and discussion statements that DLA offered to guarantee only 10 percent of yearly
estimated work in the solicitation. DLA stated that the 10 percent yearly
estimated workload minimum guarantee was arrived at to minimize DLA/DAPS
liabilities. DLA stated that DAPS has no guarantee of workload levels from DoD

                                    48
           components, and should the workload have fallen below a minimum level,
           sufficient funds to pay a contractor would not have existed. DLA stated that no
           contract bidder questioned the minimum guarantee amount until RR Donnelley
           expressed concern 6 days before solicitation closure. DLA stated that if the issue
           had been raised earlier during the 5-month solicitation period, a possible solution
           could have been reached.

           Audit Response. The use of a 10-percent minimum guarantee was indicative of a
           declining DAPS workload and by inference put into question the reliability of the
           historical workload data included in the solicitation technical exhibits. As noted
           in the report, the DAPS business base was rapidly changing, and potentially
           decreasing, as a result of shifts in technology. The DAPS A-76 study manager
           stated that the low minimum was a direct result of changing technologies of
           printing services. The DAPS director agreed that the competition was undertaken
           in a technologically fluid environment and that the PWS could not establish a
           stable historical baseline to estimate potential future printing requirements. We
           noted in the report that the contracting officer recommended including a
           guarantee of more than 10 percent if the solicitation were reissued to cover
           potential contractor startup costs including replacing leased equipment and setup
           of an automated financial system. While we agree that the firm should have
           raised the issue earlier in the process, we consider the minimum guarantee issue
           one of the direct causes as to why the DAPS public/private competition
           discouraged private firms from submitting offers.

           DLA Comments on Equipment and Maintenance Costing Information. DLA
           disagreed with draft report finding and discussion statements that DLA did not
           provide specific historical information related to equipment leasing and
           maintenance costs to private offerors. DLA noted that solicitation technical
           exhibit 23 provided equipment locations, descriptions, serial numbers, makes and
           models, acquired amounts, acquired dates, and conditions. DLA noted that at a
           April 2001 pre-proposal conference, vendors were informed that maintenance
           costs would not be available to non-Governmental entities and that it was
           incumbent on vendors to contact individual equipment manufacturers to
           determine what maintenance pricing would be available commercially. DLA did
           not consider that an undue hardship for experienced offerors. DLA agreed with
           report statements that DLA/DAPS was not legally required to disclose equipment
           and maintenance costs.

           Audit Response. Based on the DLA comments, we revised the finding and
           discussion statements related to maintenance costing information. We agree that
           the information provided in the solicitation would appear to allow a qualified
           contractor to adequately estimate equipment maintenance costs for the
           Government-furnished equipment. DLA solicitation technical exhibit 23 did not
           provide detailed information on existing DAPS-leased equipment or maintenance
           costs for leased equipment. Rather, the technical exhibit 32 only provided
           information regarding DLA-owned equipment that was to be Government
           furnished. The DLA-owned equipment represented approximately * percent of
           the value of the existing equipment used at DAPS locations. As indicated in the

*
    Government commercial privileged or personal privacy information omitted.

                                                    49
MEO management plan, the MEO had use of both the DLA-owned and leased
equipment inventory costs. Private offerors did not. We continue to believe that
not offering leased equipment to private firms made the solicitation unduly
restrictive. As noted in the report, a DAPS lease analysis provided no
documentation or methodology that supported any estimated savings from not
offering the leased equipment and no alternatives that allowed offers to bid on
portions of the existing leased equipment.

DLA Comments on Contracting Officer Recommendations. DLA stated that
contracting officer recommendations after solicitation closure concerning,
workload, staffing, historical maintenance costs, and offering of leased
equipment, should have no bearing on finding A.

Audit Response. The contracting officer findings are an integral part of the
record and as such are detailed in the report. We reviewed the 11 industry
concerns, including the four areas noted above, we analyzed solicitation, MEO
proposal, and SSAC documentation related to the issues, as well as contracting
officer analyses. In many, though not all cases, we agree with the contracting
officer recommendations made after solicitation closure that individual
solicitation information could have been improved or that additional information
could have been provided by DLA.

Deputy Under Secretary of Defense (Installations and Environment)
Comments on Exclusion of Offset Printing. Responding for the office of the
Deputy Under Secretary of Defense (Installations and Environment), the Director,
Competitive Sourcing and Privatization agreed with the finding statement that the
exclusion of offset printing from the DAPS solicitation may have discouraged
firms from submitting offers in the public-private competition. However, the
Director noted that DLA exclusion of offset printing in the DAPS solicitation was
consistent with DoD statutory obligation and that until the 10 U.S.C. 195 and the
FAR can be revised through formal rule making process, DoD compliance with
the updated OMB guidance will not be possible.

DLA Comments on Exclusion of Offset Printing. DLA disagreed with the
finding and discussion statements that DLA did not include in the solicitation
offset printing work forwarded to GPO and that the exclusion discouraged
potential offerors from competing. DLA stated that no evidence existed that
anyone in the Executive branch subsequently chose to act on the May 1996
Department of Justice opinion until the May 3, 2002, OMB memorandum was
issued, which was after the DAPS public/private competition was completed.
DLA noted that while the Department of Justice opinion committed to working
with Congress to achieve a comprehensive reform of title 44, it maintained that, in
the meantime, agencies were to continue to use the capabilities and expertise of
GPO. DLA agreed with report statements that the FAR has not been modified to
conform to the OMB memorandum and that the FAR requires Government
printing to be done by or through GPO unless GPO cannot provide the service.

DLA stated that DoD written policy requires any procurement of printing and
duplicating from private sector sources shall be through the GPO. DLA noted a
March 31, 1997, Secretary of Defense memorandum to the Director, DLA,

                                    50
    regarding the use of GPO by DAPS. The Secretary directed that DLA ensure that
    the operation of the DAPS are in conformance with the law and with the guidance
    issued by OMB regarding title 44 of the United States Code. DLA also noted that
    DoD Instruction 4100.33 requires that Government printing must be done by or
    through the GPO. DLA stated that the report should indicate DLA complied with
    a nondiscretionary regulation prohibiting the inclusion of GPO offset printing in
    the solicitation.

    Audit Response. Based on the OSD and DLA comments, we revised our final
    report discussion including adding a section on DoD guidance regarding GPO.
    We agree with the DLA characterization that no evidence exists that any
    Executive branch agency acted on the May 1996 Department of Justice opinion
    regarding GPO printing until May 2002. We noted in the report that DLA legal
    personnel stated that they concluded DLA could not legally include the GPO
    work, and solicitation inclusion of offset printing would require submission to
    GPO for approval. The report also noted, uncontested by DLA, that DAPS at its
    own discretion maintains approximately $3.18 million in offset printing work
    in-house. The in-house offset printing was not included in the OMB
    Circular A-76 competition. While the exclusion of offset printing in the DAPS
    solicitation was likely consistent with DoD statutory obligation, the option of
    requesting GPO approval and the fact that some offset printing work is performed
    in-house suggests that DLA did have at least limited discretion in the disposition
    of the offset printing work at the time of the solicitation. DAPS and DLA
    personnel stated the SSAC decided not to include the GPO offset printing work as
    the work was already contracted out by GPO, and DAPS had no in-house capacity
    to perform the offset work in the event that the DAPS MEO won the competition.
    Neither DLA nor DAPS had documented any of the reasons stated to us for not
    including in the solicitation offset printing work to GPO. We believe that the
    DLA comments provide the type of detailed justification for not soliciting the
    GPO work that was missing from the DAPS public/private competition and
    solicitation records.

Management Comments on Finding B and Audit Response
    DLA Comments on Use of Support Service Contractor Personnel in PWS
    and MEO Development. While partially concurring with the finding, DLA
    disagreed with the discussion statement that the DAPS public/private competition
    violated DOD interim guidance to avoid potential conflicts of interest by allowing
    the same private sector consultant personnel to develop both the PWS and prepare
    the MEO proposal. DLA stated that DAPS PWS and MEO development and
    source selection processes were similar to those used by DLA for its Defense
    depot OMB Circular A-76 studies. DLA stated that DAPS complied with study
    procedures by transferring consultant contractors to the MEO side of the firewall
    and moving to other offices three remaining DAPS personnel working on the
    PWS. DLA believed the integrity of the process was ensured keeping MEO team
    personnel and support consultants away from further PWS and solicitation
    development, as well as the source selection process. DLA stated that the DoD
    interim guidance was not exclusively followed because of timing and cost factors
    as well as because the SSAC legal advisor felt no substantial benefit existed for
    “starting over.” DLA believed that the commitment of senior DLA leaders for
                                        51
maintaining a level playing field and measures put in place provided adequate
protection against conflicts of interest. DLA noted that our report did not show or
discuss any evidence that the Government MEO received any advantage or
partiality as a result of the DLA firewall process.

Audit Response. The Defense Logistics Support Command performed the DLA
Defense depot studies. DAPS was not required to follow competitive sourcing
guidance of or oversight from the Defense Logistics Support Command, of which
DAPS was not a part. DLA compliance with the DoD interim guidance
requirements would not have required the DAPS public/private competition to
start over. Rather, compliance would have required that DLA not transfer to the
MEO development team up to 15 contractor consultants who had worked on the
preparation of the PWS. While DLA may have incurred additional study costs to
replace the consultants, by not doing so, the MEO proposal development received
an intangible benefit of consultants who were experts in the competition PWS
documents they had developed. Thus, DLA actions gave the MEO proposal at
least the appearance of a competitive advantage and put into question the integrity
of the study process.

DLA Comments on Potential DAPS Employee Conflicts of Interest in PWS
and MEO Development. DLA disagreed with finding and discussion statements
that the MEO certifying official determined the study scope and directed PWS
development tasks. DLA also disagreed that the MEO certifying official and
PWS development team personnel may have violated application of a DAPS
PWS-MEO firewall. DLA asserted that adequate and substantial safeguards were
in place to ensure the integrity of the process, and as soon as the perception of
conflict was identified, actions were taken to ameliorate the situation. Regarding
the MEO certifying official potential conflict, DLA noted that the audit report
failed to show how “this one instance” compromised the appearance of the
integrity and fairness of the OMB Circular A-76 competition. DLA also noted
that it was difficult to understand how the attendance of the MEO certifying
officials’ at a meeting so early in the PWS process, prior to the release of PWS
drafts and the solicitation, could have had an affect on the integrity of the
competition. Regarding the alleged PWS development team conflicts of interest,
DLA stated that the deputy study manager, one of the three DAPS personnel on
the PWS team, routinely discussed issues of logistics with MEO team personnel
and did not discuss issues relative to the PWS or acquisition, nor did MEO team
members discuss anything MEO related. DLA also discussed a contracting
officer e-mail regarding a DAPS study manager discussion with the MEO team
leader, noting the discussion related to delays in the release of software used in
developing MEO bid costs. DLA stated no discussion on how the MEO was to
cost its bid, or what it contained took place. DLA also noted that after the
contracting officer expressed concern, no further discussions on the subject
between the DAPS study manager and the MEO team took place and the DAPS
study manager did not counsel or provide guidance to the MEO. Therefore, DLA
noted no basis existed for the report conclusion that the DAPS study manager
should not have been advising the SSAC as he apparently provided advice to the
MEO.



                                    52
           Audit Response. The actions of the DAPS director and the DAPS study manager
           as documented by the contracting officer, as well as the other instances noted in
           the finding, gave at least the appearance of providing the MEO with a competitive
           advantage and put into question the integrity of the study process. * . We
           continue to believe the DLA competitive sourcing office, DLA counsel, and the
           SSAC chairs had no procedures in place to provide oversight and guidance to
           DAPS regarding potential conflicts of interest and firewall violations.

Management Comments on Finding C and Audit Response
           DLA Comments on DAPS Modifications to the Certified MEO. While
           partially concurring with the finding, DLA disagreed with discussion statements
           that MEO staffing and location increases made during the transition period put
           into question whether the MEO would be able to perform the DAPS function
           within the proposed in-house cost estimate and that DAPS modified the MEO
           structure without sufficient documentation. DLA stated that the MEO announced
           in January 2002 were based on FY 1999 and FY 2000 workload data and
           requirements. DLA believed localized workload increases required reversing the
           status of facilities originally targeted for closure in the MEO, or in other cases,
           workload decreases necessitated closure of an MEO location. DLA stated that the
           Army, Navy, Air Force, and Marine Corps each designated a representative to
           review DAPS site closures related to the MEO implementation. DAPS
           agreements were reached with the Services to keep particular DAPS facilities
           open on a cost reimbursement basis if the Service representative decided that the
           facility had an impact on military readiness or mobilization.

           The DLA stated that DLA/DAPS developed an internal procedure for change
           approvals, and that MEO transition period revisions were approved by the DAPS
           Director and briefed to DLA officials. DLA stated that DAPS personnel met with
           the DLA IRO in March 2002 to discuss the methodology required for MEO
           revisions. DLA comments stated that the IRO requested MEO revisions be fully
           documented, demonstrate the workload or business reasons for the changes, and
           contain formal approvals of appropriate DAPS officials. DLA stated that at the
           time of this audit, DAPS MEO revision documentation had not been developed.
           DLA stated revision documentation has now been developed and approved,
           confirms that actual MEO costs will fall within the in-house cost estimate as
           modified by changed PWS requirements, and provides the necessary audit trail for
           an MEO post-implementation review.

           Audit Response. While we agree that localized workload increases and
           decreases will occur during the life of the MEO, we do not agree that expressions
           of the Services as to a revised DAPS MEO structure should in themselves result
           in changes to the certified MEO during the transition phase. DAPS transition
           phase actions appear to violate the sprit and intent of the OMB Circular A-76
           process to implement an MEO organizational structure determined by the study
           process and public/private competition.


*
    Government commercial privileged or personal privacy information omitted.

                                                     53
We found no evidence of a written DLA or DAPS internal procedure for MEO
change approvals, or a written change to PWS requirements to support changes
made to the certified MEO during the transition period. We found no written
approvals of DAPS MEO changes at either the DAPS or DLA and no IRO request
for documentation. As noted in the report, the IRO made informal
recommendations regarding MEO revision documentation, and a DAPS
March 2002 briefing of MEO revisions to a DLA official erroneously stated that
total MEO full-time equivalent personnel would not be increased and no
additional costs incurred. DAPS did not prepare a revised management plan or
cost estimate to support either the MEO modifications disclosed to the DLA
official or further modifications made during the transition period. On
December 6, 2002, DAPS provided us with four draft MEO modifications that
summarized the changes to the certified MEO. Because none of the draft
modifications was dated or approved by DAPS or DLA officials, we did not
review them for sufficiency. As noted in Recommendation C.1., we believe that
guidance is needed at the DoD level specifying documentation and approval
requirements for revisions to MEO structures made during the transition period
after MEO selection but before implementation.




                                  54
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology and Logistics
   Deputy Under Secretary of Defense (Installations and Environment)
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Administration and Management

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Organizations
Director, Defense Logistics Agency
   Director, Defense Reutilization and Marketing Service
   Director, Document Automation and Production Service

Non-Defense Federal Organizations
Office of Management and Budget*




*Copies with government commercial privileged or personal privacy information omitted.



                                                  55
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Readiness, House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
Senator George Allen*




*Copies with government commercial privileged or personal privacy information omitted.




                                                  56
Deputy Under Secretary of Defense (Installation
and Environment) Comments




                       57
Final Report
 Reference




Renumbered
A.2. and
Redirected




               58
     Final Report
      Reference



     Response to
     Recom-
     mendation
     C.1.




59
Defense Logistics Agency Comments




                     60
     Final Report
      Reference




     Revised




61
62
63
Final Report
 Reference




Revised




               64
     Final Report
      Reference




     Revised




65
Final Report
 Reference




Revised

Page 9




               66
     Final Report
      Reference




     Revised




67
Final Report
 Reference




Page 41




Deleted




               68
     Final Report
      Reference




     Revised
     Page 41




69
Final Report
 Reference



Page 14




Page 14




               70
71
Final Report
 Reference



Page 14




Page 20




Page 20




               72
     Final Report
      Reference



     Page 14




     Page 21




     Page 23




73
Final Report
 Reference



Page 25




Page 25
Page 26




               74
75
Final Report
 Reference




Renumbered
A.3.




Page 40




Renumbered
A.3.a.
Renumbered
A.3.a.




               76
77
78
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Robert K. West
William C. Gallagher
Benjamin A. Mehlman
Robert M. Sacks
Cecil B. Tucker
Scott G. Stadtmueller
Takia A. Matthews
Pedro J. Toscano
